<html>
<title> - PROTECTING U.S. CITIZENS ABROAD FROM TERRORISM</title>
<body><pre>[Senate Hearing 107-679]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-679
 
             PROTECTING U.S. CITIZENS ABROAD FROM TERRORISM
=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                               MAY 2, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate







                       U. S. GOVERNMENT PRINTING OFFICE
81-762                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                  BARBARA BOXER, California, Chairman
JOHN F. KERRY, Massachusetts         MICHAEL B. ENZI, Wyoming
BILL NELSON, Florida                 BILL FRIST, Tennessee
JOSEPH R. BIDEN, Jr., Delaware       JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     SAM BROWNBACK, Kansas

                                  (ii)

  






                            C O N T E N T S

                              ----------                              
                                                                   Page

Andruch, Dianne M., Deputy Assistant Secretary of State for 
  Overseas Citizens Services, Bureau of Consular Affairs, 
  Department of State, Washington, DC............................     5
    Prepared statement...........................................     8
Bergin, Peter E., Principal Deputy Assistant for Diplomatic 
  Security and Director of the Diplomatic Security Service, 
  Department of State, Washington, DC............................    12
    Prepared statement...........................................    13
Ondeck, Thomas P., president, GlobalOptions, Inc., Washington, DC    28
    Prepared statement...........................................    30
Penner, Hon. Vernon, vice president for Corporate International 
  Services, Crisis Management Worldwide; former Deputy Assistant 
  Secretary of State for Overseas Citizens Services, Annapolis, 
  MD.............................................................    26
Smyth, Frank, Washington Representative, The Committee to Protect 
  Journalists, Washington, DC....................................    22
    Prepared statement...........................................    24
Spivack, Dr. Sheryl E., associate professor of Tourism Studies, 
  George Washington University, Washington, DC...................    33
    Prepared statement...........................................    35

                                 (iii)

  


             PROTECTING U.S. CITIZENS ABROAD FROM TERRORISM

                              ----------                              


                         THURSDAY, MAY 2, 2002

                           U.S. Senate,    
              Subcommittee on International
                          Operations and Terrorism,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:16 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the subcommittee), presiding.
    Present: Senators Boxer, Bill Nelson, and Enzi.
    Senator Boxer. The International Operations and Terrorism 
Subcommittee will come to order. We believe that Senator Enzi 
is on his way and as soon as he arrives we will take his 
opening statement, but we have a time constraint, so we are 
going to move forward.
    I am very pleased to be joined this morning by Senator 
Nelson, who has unfortunately an early commitment, but he cares 
about this issue, and he is going to make an opening statement. 
I want to thank Senator Enzi and his staff for their 
cooperation in putting this hearing together.
    Following the September 11 terrorist attack on America that 
tragically claimed so many lives and the anthrax scare that 
remains unsolved to this day, the United States has placed a 
real focus on stopping terrorism on U.S. soil. We have done 
this by creating an Office of Homeland Security, tightening 
airport security, and devoting more resources and funding to 
ensure security here at home.
    I believe all of that is terribly important. As a member of 
the Commerce Committee, I have worked hard on many of those 
issues that fall into the area of homeland defense. Yet, as 
Chair of the Foreign Relations Subcommittee on International 
Operations and Terrorism and with my Ranking Member Senator 
Enzi, we recognize that, in addition to the new emphasis on 
homeland security, Congress has a responsibility and a duty to 
continue our oversight role in reviewing the threat that 
terrorism poses to U.S. citizens abroad.
    Just in the past few months, our embassies have been 
threatened, our tourists kidnaped and killed, a journalist 
executed, and even in a church in Pakistan Americans were 
targeted and murdered.
    In our hearing today we hope to accomplish a few goals. 
First, we hope to receive an overview of terrorist threats 
against U.S. citizens living, working, and traveling abroad. 
Second, we hope to hear what the current procedures are for 
private citizens and organizations who seek to obtain U.S. 
Government assistance abroad in dealing with the terrorism 
threat. Third, we want to review the plans and procedures that 
are in place at the State Department to protect U.S. citizens 
abroad against terrorism, including coordination with other 
Federal agencies and efforts to encourage foreign governments 
to enact counterterrorism policies that lead to better 
protection of U.S. citizens and all people abroad. Fourth, I 
hope we will hear recommendations on improving the security of 
Americans abroad, especially in light of the September 11 
attacks. We may want to look at legislation. We may not have to 
do that. But we hope that you will come forward with those 
ideas.
    To help us learn more about this issue, we have invited two 
distinguished panels of witnesses to testify this morning. On 
the first panel we have two witnesses from the State 
Department. Mr. Peter Bergin is the Deputy Assistant Secretary 
for Diplomatic Security and Director of the Diplomatic Security 
Service. Joining him is Ms. Dianne Andruch. Did I say that 
right?
    Ms. Andruch. Fine.
    Senator Boxer. She is the Deputy Assistant Secretary for 
Overseas Citizens Services.
    On the second panel we have four witnesses. First is Mr. 
Peter Smyth, the Washington representative for The Committee to 
Protect Journalists. Second is Ambassador Vernon Penner, a 
terrorism expert with Crisis Management Worldwide. Ambassador 
Penner also held the position of Deputy Assistant Secretary of 
State for Overseas Citizens Services during the Reagan 
administration. Third is Mr. Thomas Ondeck, a tourism expert at 
GlobalOptions, Inc. Mr. Ondeck provides consulting services to 
businesses operating overseas. Fourth, our witness will be Dr. 
Sheryl Spivack, assistant professor of Tourism Studies at 
George Washington University.
    Finally, I want to make it clear this hearing is not 
designed to persuade Americans against traveling abroad or 
studying in foreign countries or conducting business overseas 
or joining the Foreign Service. This hearing acknowledges that 
U.S. citizens will and should continue to go abroad in even 
greater numbers and I for one encourage all Americans to reach 
out beyond our borders. That is the way we make the difference 
in the world.
    But I hope this hearing will lead the way for improvements 
in security against terrorism for these Americans and all 
people.
    Senator Enzi, I am so glad to see you. I wonder if you 
would yield briefly because Senator Nelson has to leave us.
    Senator Enzi. Sure.
    Senator Boxer. Thank you so much.
    Senator Nelson and then Senator Enzi.
    Senator Nelson. Thank you, Madam Chairman. Thank you, 
Senator Enzi.
    I just wanted to come and lend my support to you and 
Senator Enzi in the conduct of this hearing, because of having 
just returned from 2\1/2\ weeks abroad with Senator Shelby. As 
we have gone from embassy to embassy and seeing the 
considerable threats that our diplomatic personnel endure, 
whether it is in a wonderful facility, for example, in 
Islamabad, well-constructed, relatively new, set back in a 
diplomatic compound, and yet it was in that same diplomatic 
compound that the bomber, the suicide bomber, infiltrated into 
the church.
    One of the most popular employees of our embassy was the 
lady that was killed with her child. A family of Floridians 
were in the church that day. We had to get to work to try to 
get them air-evac'ed out. They are going to live. It is the 
Wamble family. They are from the Tampa Bay area. But we are 
talking about long-time, big-time recovery, the son with brain 
injury, the mother with major injuries. Thank the good Lord, 
they are going to live. But again, it just brings it home, the 
personal aspect of Americans abroad.
    Or I remember the embassy in Damascus, an embassy that is 
an old embassy, but an embassy that is right on the street. 
While Senator Shelby and I were there, there was a 
demonstration of 100,000 people and we thanked the President of 
Syria for the protection in our 2-hour meeting. We had a face-
off on some other issues. We thanked him for his help as we go 
after al-Qaeda, but we certainly disagreed with his policy with 
regard to Hezbollah.
    But right at the outset of the meeting, we said: Thank you, 
Mr. President, for protecting our diplomatic personnel. They 
had the riot police lined up shoulder to shoulder with shields 
out there, protecting not only the embassy but the Ambassador's 
residence, which by the way had been ransacked back in the late 
nineties, and the Ambassador's wife had to take refuge in a 
safe room in the top of the embassy residence.
    So we have really got our hands full in the protection of 
our diplomatic people. Then I remember on the stop that we 
broke up the trip coming home from Turkey. By the way, we are 
building a new consulate in Istanbul, that will give us some 
more protection, because we have had bombs and rocket grenades 
shot at our embassy in Istanbul.
    But breaking up the trip coming home in what is considered 
a relatively--and I make the point--secure country, 
Switzerland. We landed at a military base, we went to our 
embassy in Berne for the country team briefing. It is in a 
residential neighborhood. There is not a lot of protection 
there. We are hoping that we can acquire some facilities right 
next to the Ambassador's residence and then create an expanded 
perimeter.
    But I bring up the point about Switzerland because when you 
are dealing with terrorists you never want to be surprised that 
you are surprised. There is nothing that says that they are not 
going--which we tried to share with the Swiss citizens and the 
Swiss Government as we were there: You better be prepared. 
Nothing says that you are immune from terrorist attack.
    So I wanted to come and bring you these personal 
observations. My heart goes out to some of--and by the way, I 
was so impressed with our diplomatic personnel. My heart goes 
out to people like Wendy Chamberlain, the Ambassador to 
Pakistan, who after September 11--she is a single mom--she had 
to take her children back to the States, return to Islamabad.
    Early this year she was so excited. I saw her here. She was 
so excited, she was getting her children to come back, and then 
the bombing of the church, not only the evacuation of all 
dependents, but the reduction of the embassy staff down to just 
essential personnel.
    So there is a great deal of personal disruption in family 
lives. I just wanted to come and give you my personal 
observations, Madam Chairman.
    Senator Boxer. I want to thank you very much. I think you 
have added a lot to the hearing just because you were in the 
hot spots. We thank you for going there, for doing your work 
with Senator Shelby, and we will absolutely consider everything 
you have said as we go on with this hearing.
    Senator Nelson.
    Senator Nelson. By the way, I say that, I just said a few 
countries. We were in about six or eight countries, including 
Kabul, Afghanistan. Our embassy there is just something to 
believe. They are sleeping and eating in bunkers in the embassy 
compound and they still continue to try to de-mine the grounds 
of the embassy.
    We had landed in helicopters from Bagram to the Kabul 
Airport and suddenly a guy is out there standing, putting up 
his hands, saying: Do not pass; we just found a mine; we are 
going to blow it up. And they blew it up right on the side of 
the road as we waited before we passed through.
    So my hat is off to our embassy personnel overseas. Thank 
you for letting me share that.
    Senator Boxer. Senator Nelson, I think I always thought it 
was rough here in the Senate, but it is a little rougher 
outside.
    Senator Enzi, thank you so much.
    Senator Enzi. Good morning. Thank you, Madam Chairman. I 
appreciate the comments that you have made and especially 
appreciate the comments you made about how we are not trying to 
discourage travel or education abroad. In fact, we do encourage 
that, because every trip that I have ever made has given me a 
much greater appreciation for what we have here in the United 
States.
    I appreciate the comments about the embassies. Those are 
people who have volunteered their lives for their country, and 
we certainly hope we do not have to extract that big of a 
price. It is our responsibility to see that what they need, 
both the people in the embassies and the people in the 
military, what they need to do their job and to be safe are 
provided.
    Of course, these things that we are talking about are not 
new. One of the first experiences that I had when I came to the 
Senate was hearing from a family in my home town of Gillette, 
Wyoming, who had a son in Pakistan doing an audit on his 
company and the entire team of auditors were wiped out in an 
assassination. It just does not seem like it can happen to 
somebody that you know.
    But I do thank you for calling this hearing to look at the 
protection of U.S. citizens abroad, regardless of what they are 
doing there, in the uncertain terrorist environment that 
currently characterizes the world community. We do have a 
greater understanding now.
    As we all know, there is a heightened sense of fear that 
terrorist acts will grow in number and intensity among our 
civilian population. Feelings of vulnerability have been 
increased, given the unprecedented attacks on our own soil last 
September. With that heightened awareness of threat and the 
increased sense of personal vulnerability at home, when it 
comes to considering travel abroad Americans have been 
assessing the risks of doing so as never before.
    U.S. citizens are increasingly prime targets for 
international terrorism. In 2000, approximately 47 percent of 
all terrorist incidents worldwide were directed against U.S. 
nationals or property, according to the State Department, and 
the vast majority of such attacks have occurred on foreign 
soil. The numbers of those who do decide to travel or live 
abroad are significant. Americans make approximately 60 million 
trips abroad each year and approximately 3.2 million Americans 
reside overseas. Notably, the U.S. business community overseas 
is a primary target of international terrorism in over 65 
percent of such incidents.
    Clearly, the U.S. Government has a role and a duty to its 
citizens, and I look forward to the first panel reporting on 
what the State Department has been doing. However, this is a 
growing and complicated phenomenon, requiring the best efforts 
of government and private sectors together.
    Witnesses on the second panel will provide context on what 
is on the minds of travelers and business people and what 
measures they are considering for coping with personal safety 
threats and vulnerabilities when abroad.
    I look forward to hearing from today's panelists and wish 
to thank them in advance for bringing to this subcommittee 
their expert views on matters that grip each and every one of 
us desiring to travel overseas in this post-9/11 world.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you so much, Senator Enzi.
    We are going to hold each speaker on the panel to 7 minutes 
because of time constraints. We want to make sure we have a 
chance to ask you questions. I hope that works out. We will put 
your full statement in the record, and why do we not start with 
you, Ms. Andruch, again Deputy Assistant Secretary for Overseas 
Citizens Services at the State Department.

 STATEMENT OF DIANNE M. ANDRUCH, DEPUTY ASSISTANT SECRETARY OF 
   STATE FOR OVERSEAS CITIZENS SERVICES, BUREAU OF CONSULAR 
          AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Andruch. Thank you very much and thank you also for the 
opportunity to testify this morning on behalf of the Bureau of 
Consular Affairs in the Department of State.
    Senator Boxer. Could you pull that mike forward? I think 
people in the back cannot hear.
    Ms. Andruch. This is an especially important topic to us, 
the protection of U.S. citizens abroad, including embassy 
personnel, journalists, and private citizens, from terrorist 
threats. The Bureau of Consular Affairs is charged with 
exercising the Secretary of State's responsibility to provide 
consular protection and service to American citizens abroad. As 
the Senator already mentioned, approximately 3.2 million 
Americans reside abroad and Americans make more than 60 million 
trips outside the United States each year. There is no higher 
priority of the Department of State than the protection and 
welfare of American citizens.
    U.S. citizens traveling, studying, and working abroad have 
always been on the front lines of America's struggles with 
terror, crime, and threats to safety. As consular officers, we 
have witnessed firsthand the dreadful consequences of terrorism 
against our fellow citizens abroad, for the past quarter 
century and more. Recent events, however, and the sacrifice and 
suffering of more American families, show once again that we 
must all be more vigilant as the war against American 
terrorism--America's fight against terror continues.
    Since the tragedy of September 11, we have redoubled our 
efforts to protect U.S. citizens abroad. In our private-public 
partnership with Americans abroad, working with our colleagues 
in the Diplomatic Security Office and other government 
agencies, the Bureau of Consular Affairs is always exploring 
new ways to assist and protect American citizens. In my 
testimony today, I will discuss some of our efforts to assess 
the dangers confronting Americans abroad and to tailor our 
programs and services to the needs of our citizens.
    Our Overseas Citizens Services Directorate, OCS, provides 
vital assistance to U.S. citizens abroad on a daily basis and 
especially during periods of crisis. One of our primary 
objectives is to give Americans easily accessible information 
alerting them to potentially dangerous situations. While 
unforeseen events can and do occur anywhere, we believe that 
safe, informed travel is best achieved by learning everything 
possible about conditions in that country before the travel 
begins.
    The Department informs Americans of potential threats to 
their safety abroad through the three-tiered Consular 
Information Program. Consular information sheets, public 
announcements, and travel warnings are available on our 
Consular Affairs home page at travel.state.gov.
    Senator Boxer. Say that one more time.
    Ms. Andruch. The Web page is travel.state.gov.
    That Web site got over 118 million hits last year. Since 
September 11 we have issued two worldwide caution public 
announcements, two regional Middle East public announcements, 
and numerous country-specific public announcements and travel 
warnings to address terrorism and other threats.
    I would like to take a moment to address briefly how threat 
material in this program is assessed. Security information 
contained in public announcements and travel warnings is based 
on information that is gathered from many sources, including 
our embassies and consulates abroad, U.S. intelligence agency 
open sources, and of course from other friendly governments.
    The Bureau of Diplomatic Security determines if the threat 
information is specific, credible, and non-counterable. The 
Bureau of Consular Affairs coordinates the final text with the 
Department of State offices involved, embassies overseas, and 
other U.S. Government agencies.
    In addition to the consular information program, American 
communities abroad are alerted to threats through what we call 
a warden system, or a network of providing information, which 
is designed and maintained by our embassies and consulates. 
These systems provide a quick mechanism for sharing information 
when there is imminent danger to the resident American 
community.
    Following September 11, U.S. embassies and consulates used 
these systems intensively to disseminate messages relevant to 
the safety and security of Americans. In March of this year, we 
authorized posts to use their systems to distribute domestic 
threat advisories that were issued by the Attorney General or 
Governor Ridge here in the United States.
    I would like to take this opportunity as well to let you 
know about changes in our critical consular services for 
Americans since September 11. One of our short-term goals is 
the creation of an online registration program for American 
travelers. This new system will create a central Internet site 
where Americans can register online with any embassy or 
consulate in the world. We plan to pilot test this new system 
early this summer.
    In addition, we established a call center through which 
Americans without Internet access can get the latest 
information. Recognizing the need to improve our ability to 
track individual cases of Americans involved in crises overseas 
and report on the situation, the Bureau of Consular Affairs has 
worked with private sector information and technology firms to 
create a new crisis management software application. Again, in 
the summer of this year we will deploy this system to all our 
embassies and consulates abroad.
    Another major change that the Bureau implemented since 
September 11 is a new overseas passport issuance program. On 
April 8 of this year, American citizens who require issuance of 
a U.S. passport while residing or traveling abroad will be 
issued the latest state-of-the-art passport. It incorporates a 
digitized image with other enhanced security features. The new 
passport--and I happen to have a copy here--has many features 
that make it one of the most secure travel documents produced 
anywhere in the world.
    Issuing these more secure passports, putting these into 
circulation, instead of relying on the less sophisticated 
versions that have been issued by embassies and consulates 
abroad, will further help prevent the misuse of American 
passports by criminals, terrorists, and others.
    In light of the events of September 11, it is more 
important than ever to reach out to congressional staff, 
business, and community leaders, schools, and other key 
stakeholders regarding our efforts to safeguard Americans 
overseas, protect our borders via vigorous visa adjudication 
processes, and also ensure the integrity of our U.S. passports. 
Since September 11 we have spoken to hundreds of key 
stakeholders all across the country. We partner with the Bureau 
of Security, Overseas Security Advisory Council, known as OSAC, 
and participate in their outreach activities with American 
business, security experts and other private organizations.
    Our consular sections, working closely with the embassy 
regional security officer, also provide safety and security 
briefings for the local American community as needed.
    Is that my timer?
    Senator Boxer. Yes, and I will ask, I have your statement 
and we will put it in the record and we will get to some of 
what else you have to say.
    Ms. Andruch. OK, and I will be glad to take questions. 
Thank you.
    [The prepared statement of Ms. Andruch follows:]

  Prepared Statement of Dianne Andruch, Deputy Assistant Secretary of 
     State, Overseas Citizens Services, Bureau of Consular Affairs

    Madame Chair and Members of the Committee:
    Thank you for the opportunity to testify on behalf of the Bureau of 
Consular Affairs of the Department of State on the very important topic 
``protecting U.S. citizens abroad, including Embassy personnel, 
journalists, and private citizens, from terrorist threats.''
    The Bureau of Consular Affairs (CA) is charged with exercising the 
Secretary of State's responsibility to provide consular protection and 
services to United States citizens abroad. Approximately 3.2 million 
Americans reside abroad and Americans make more than 60 million trips 
outside the U.S. each year. There is no higher priority of the 
Department of State than the protection and welfare of Americans 
overseas.
    U.S. citizens traveling, studying and working abroad have always 
been on the front lines of America's struggles with terror, crime and 
threats to safety. As consular officers, we have witnessed first hand 
the dreadful consequences of terrorism against our fellow citizens 
abroad for the past quarter century and more. Recent events, and the 
sacrifice and suffering of more American families, show once again that 
we must be all the more vigilant as America's fight against terror 
continues.
    Since the tragedy of September 11th, we have redoubled our efforts 
to protect U.S. citizens abroad. In our private-public partnership with 
Americans abroad, working with our colleagues in the Bureau of 
Diplomatic Security (DS) and other government agencies, CA is always 
exploring new ways to assist and protect our citizens. In my testimony 
today, I will discuss some of our efforts to assess the dangers 
confronting Americans abroad and to tailor our programs and services to 
the real needs of our citizens.
    Our Overseas Citizens Services Directorate (OCS) provides vital 
assistance to U.S. citizens abroad on a daily basis and during periods 
of crisis. We exercise this responsibility through a staff in 
Washington and our consular colleagues in our embassies and consulates 
throughout the world. Consular duty personnel are available 24 hours a 
day, 7 days a week in Washington and overseas.
    One of our primary objectives is to give Americans easily 
accessible information alerting them to potentially dangerous 
situations. While unforeseen events can occur anywhere, we believe that 
safe, informed travel is best achieved by learning everything possible 
about conditions in the country or region you are visiting.
    The Department informs Americans of potential threats to their 
safety abroad through its three-tiered Consular Information Program. 
Consular Information Sheets, Public Announcements and Travel Warnings 
are available on our Consular Affairs home page at 
www.travel.state.gov, which received nearly 118 million inquiries last 
year. Our embassies and consulates also maintain their own Web sites to 
alert Americans in country to local developments. Since the bombings of 
our Embassies in Nairobi and Dar es Salaam in 1998, we have found it 
useful to issue Worldwide Caution Public Announcements, to alert 
Americans generally to the fact that terrorists have threatened action 
against Americans and American interests abroad.
    Since September 11th, we have issued two World Wide Caution Public 
Announcements, two regional Middle East Public Announcements, and 
numerous country-specific Public Announcements and Travel Warnings that 
address terrorism, safety and security. Of the 29 current Travel 
Warnings, 9 are related to possible terrorist threats against American 
citizens: Israel, the West Bank and Gaza (4/02/02; Pakistan (3/22/02); 
Yemen (3/18/02); Afghanistan (2/28/02); Algeria (12/11/01); Indonesia 
(11/23/01); Tajikistan (9/26/01); Colombia (4/17/01); and Lebanon (8/
28/00).
    We also have Travel Warnings for Iran, Iraq and Libya, but these 
are to warn Americans that there is no U.S. diplomatic presence in 
these countries and that the governments are hostile to the United 
States.
    Of the 19 current Public Announcements, 9 are related to possible 
terrorist threats against American citizens: Middle East Update (04/24/
02); Peru (4/19/02); Philippines (4/18/02); Worldwide Caution (3/17/
02); Turkmenistan (3/15/02); Colombia (2/22/02); Uzbekistan (1/8/02); 
Kyrgyz Republic (1/2/02); and Malaysia (12/5/01). In addition, we 
issued a Fact Sheet about chemical biological agents in October 2001. 
Copies of these documents have been made available to the Committee.
    I would like to take a moment to discuss briefly how threat 
material in our Consular Information Program is assessed. The Aviation 
Security Improvement Act of 1990, passed in response to the 1988 Pan Am 
103 tragedy, provided criteria (specific, credible, non-counterable) to 
be used in evaluating aviation threats. The Department adopted these 
criteria more generally in evaluating all threat information. The Act 
also established the tenets, adopted Government-wide as the ``No Double 
Standard'' policy, for dissemination of threat information to the 
American public. In keeping with the ``No Double Standard'' policy, 
therefore, documents often inform private Americans of security 
measures adopted by a U.S. mission within a specific country, such as 
limits on in-country travel or that a post has gone to authorized 
departure status.
    The security information contained in Public Announcements and 
Travel Warnings is based on threat information gathered from all 
sources, including our embassies and consulates, the U.S. intelligence 
community, open sources, and our allies. Very often, a post will 
specifically request a Public Announcement and provide suggested 
language. Once the Bureau of Diplomatic Security determines that the 
threat information is specific, credible, and non-counterable, the 
Bureau of Consular Affairs works closely with posts to develop 
appropriate language, and clears the announcement with posts and other 
interested offices within the Department.
    In addition to the Consular Information Program, American 
communities abroad are alerted to threats through warden systems, which 
are designed and maintained by our embassies and consulates. This 
system provides a quick mechanism for sharing information when there is 
imminent danger to the American community. Because embassies now 
communicate with hundreds or even thousands of citizens, the 
traditional warden system has evolved into a combination of telephone, 
multi-fax, e-mail, high frequency radio, media and home page 
mechanisms. The best method of communication is determined on a 
country-specific basis within the context of local circumstances.
    Following September 11th, U.S. embassies and consulates used their 
warden systems intensively to disseminate Worldwide Public 
Announcements, new Travel Warnings, and other messages relevant to the 
safety and security of Americans. In addition, we established a call 
center through which Americans without Internet access can receive 
updates to the Consular Information Program by telephone. In March 
2002, we authorized posts to use their warden systems to distribute 
domestic threat advisories issued by the Attorney General or Homeland 
Security Agency without prior Department approval.
    One of our short-term goals is the creation of an on-line 
registration program for American travelers. This new system will 
create a central Internet site where Americans can register on-line 
with any embassy or consulate in the world. We plan to pilot test the 
new system in early summer.
    To respond to the concerns of Americans traveling or residing 
abroad, we hold many outreach briefings in the United States to key 
stakeholders in tourism, travel, education, and other organizations. In 
light of the events of September 11th, it is more important than ever 
to reach out to Congressional staff, business and community leaders, 
schools and other key stakeholders regarding our efforts to safeguard 
Americans overseas, protect our borders via vigorous visa adjudication 
processes, and ensure the integrity of U.S. passports.
    Since September 11th we have spoken to hundreds of key stakeholders 
in Mobile, Ft. Worth, Dallas, Austin, El Paso, Palm Springs, Boise, 
Tulsa, Denver, Phoenix, Las Vegas, Boston, St. Louis, Orlando and the 
Washington, DC metropolitan area. We will continue our outreach efforts 
this spring and summer in San Antonio, Houston, Chicago, San Francisco, 
Nashville, Greensboro, NC, Miami, Stowe, VT, and Oklahoma City. We will 
resume our outreach sessions in the Fall with visits to additional 
cities around the country. Our Passport Agencies in the United States 
are also engaged in extensive outreach to the American community. We 
partner with DS's Overseas Security Advisory Council (OSAC) and 
participate in their outreach activities with American business 
security experts and other private organizations. Our consular 
sections, working closely with the embassy Regional Security Officer, 
also provide safety and security briefings for the local American 
community overseas as needed.
    When a large-scale or continuing crisis occurs, Overseas Citizen 
Services (OCS) frequently establishes a task force at the State 
Department to assist the American citizens involved overseas and to 
provide information to interested parties in the United States, most 
commonly family members and members of Congress. This group operates 24 
hours a day until the crisis abates. Recognizing the need to improve 
its ability to track the individual cases of Americans involved in 
crises overseas and report on the situation, CA has worked with a 
private sector information technology firm to create a new crisis 
management software application. In mid 2002, we will deploy the system 
to all our embassies and consulates abroad.
    Another major change implemented by CA since September 11th is our 
new overseas passport issuance program. Effective April 8, 2002, 
American citizens who require issuance of a U.S. passport while 
residing overseas will be issued the latest, state-of-the-art passport. 
It incorporates a digitized image with other enhanced security 
features. Because this technology is not available at U.S. embassies 
and consulates, overseas passport issuance is being transferred to the 
National Passport Processing Center in Portsmouth, New Hampshire. The 
new passport has many features that make it one of the most secure 
travel documents produced anywhere in the world. Issuing these more 
secure passports into circulation, instead of relying on the less-
sophisticated versions issued by embassies and consulates, will help 
prevent the misuse of American passports by criminals, terrorists, and 
others. The Department is committed to ensuring that American citizens 
receive secure documents in a timely manner. U.S. embassies and 
consulates will continue to issue passports that are needed for urgent 
travel. However, such passports will be limited in validity, and cannot 
be extended. Bearers will be required to exchange their limited 
validity passports for full-validity digitized passports, at no 
additional cost, upon completion of their urgent travel.
    Now I would like to turn my remarks to the assistance we have 
provided to actual American victims of terrorism. During the last year 
OCS has improved and expanded our assistance to American citizen 
victims of serious crime overseas, including victims of terrorism. As 
part of this program we are working more closely with victim assistance 
and compensation programs that serve as a resource to victims in the 
United States and we refer victims to specialized programs that can 
provide ongoing assistance when the families return to the U.S.
    Consular officers in our embassies and consulates overseas and in 
Washington have provided extensive assistance to American citizens who 
have been victims of terrorist acts outside the United States. As 
consular officers our primary focus is the health and safety of 
Americans, not the investigation of the incident, but we coordinate our 
assistance with other agencies that have law enforcement 
responsibilities, including the FBI.
    For example:

  <bullet> Kidnapping in the Philippines

    In the continuing case of a couple who were kidnapped by the Abu 
Sayyaf Group on May 27, 2001 in the Philippines, our consular officers 
in Washington and in Manila have maintained frequent and regular 
communication with the family in the United States, providing them with 
information updates and providing referrals for victim assistance as 
requested. An ongoing hostage taking is very traumatic, not only for 
the individuals who being held, but also for their families back home. 
Earlier this year we facilitated the travel of two family members to 
the Philippines where they received briefings and recorded personal 
appeals for the release of the hostages. We coordinated our efforts 
with victim assistance services; the Kansas state victim assistance 
agency supported their travel and we supported their stay in the 
Philippines. We will continue to maintain regular contact and provide 
assistance as needed.
    The U.S. Government is currently assisting the Philippine 
Government in its efforts to fight the Abu Sayyaf and other terrorist 
groups by supplying training and equipment to the Philippine armed 
forces. U.S. Embassy officials in Manila remain in almost daily contact 
with high-level officials of the Philippine government, military and 
police. The U.S. has designated Abu Sayyaf as a Foreign Terrorist 
Organization and their assets have been blocked under U.S. law.
    A Public Announcement for the Philippines citing kidnapping of U.S. 
citizens was in place when the American couple was taken hostage. The 
Philippines Public Announcement has since been updated on May 27, June 
6, June 14, June 26, October 4, October 5, 2001 and April 18, 2002.

  <bullet> Grenade Attack on Church in Islamabad

    In the aftermath of the hand grenade attack on the church in 
Islamabad on March our Embassy staffs assistance was critical in 
responding to the immediate medical, physical and emotional needs of 
the victims, many of whom were members of our official community. Two 
Americans were killed in the attack and fourteen Americans and a 
Foreign Service National employee of the consular section of the 
Embassy were wounded.
    Consular officers also assisted private U.S. citizens who were 
wounded in the attack. Consular officers from several overseas posts 
assisted in the medical evacuation of victims and provided continuing 
support while they convalesced in overseas medical facilities. We 
continue to assist the victims of this attack, linking them with 
services here in the U.S., including crime victim compensation and 
assistance programs that provide reimbursement for counseling and out 
of pocket medical expenses.
    Following the attack, the Worldwide Caution was immediately revised 
on March 17. The March 17th revision notes the ``growing possibility 
that as security is increased at official U.S. facilities, terrorists 
and their sympathizers will seek softer targets.'' The Pakistan Travel 
Warning was revised on March 18 when the Department subsequently 
authorized voluntary departure of non-emergency Embassy and Consulate 
personnel and family members in Pakistan. Additional information on 
threats resulted in the ordered departure on March 22 of non-emergency 
Embassy and Consulate personnel and family members in Pakistan, which 
was reflected in the March 22 Travel Warning for Pakistan.

  <bullet> Israel and West Bank

    With regard to events in Israel and the West Bank, most of the 
injured and killed Americans are residents of the area and our consular 
officers have been mobilized to visit them and assist as needed. In 
some cases the victims have been visitors to the area and we have 
worked with family and others to facilitate communication with home, 
medical treatment, and repatriation to the U.S. when they are able to 
travel. In a recent case we were able to link the victim to a state 
crime victim compensation program that is coordinating services to 
assist her in recovering from her serious injuries, including the loss 
of an eye. The Travel Warning for Israel and the West Bank of October 
2000 was updated December 7, 2001 and April 2, 2002.

  <bullet> Kidnapping and Murder of Daniel Pearl

    Daniel Pearl, a journalist for the Wall Street Journal, was 
kidnapped in Karachi, Pakistan on January 23. The Consulate General in 
Karachi advised the Department of Mr. Pearl's death on February 21, 
following receipt of a videotape of his murder.
    In the case of Daniel Pearl, we have coordinated our efforts with 
other Federal agencies to assist his widow and family, in matters such 
as obtaining information and assistance and compensation resources. The 
Office of the Coordinator for Counterterrorism (S/CT) discussed hostage 
strategy and negotiation with the parents of Daniel Pearl during key 
moments of the crisis. Since Mr. Pearl's last residence in the U.S. was 
California, we contacted the California Crime Victim Compensation 
Program, which in turn is working to provide assistance. Our consular 
officers in Paris have also provided direct outreach and support to 
Mrs. Pearl and we contacted the victim compensation authorities in 
France to facilitate additional assistance. As the trial commences our 
consular officers in Pakistan are in daily contact with family members 
providing information updates.
    A Travel Warning for Pakistan has been in effect since August 10, 
1999 when we first obtained information that suggested strongly that 
extremists based in Afghanistan were prepared to attack U.S. interests 
in Pakistan. As we continued to receive information regarding the 
safety and security of Americans in Pakistan, we subsequently updated 
the Travel Warning nine times: on May 14, 2001, September 17 (after the 
September 11, 2001 terrorist attacks in the United States and with the 
announcement of the voluntary departure of non-emergency Embassy and 
Consulate personnel and all family members in Pakistan), September 25, 
December 13, January 28, January 30, March 2, March 18 and March 22. 
The January 30 Travel Warning was the first reference to the kidnapping 
of an American journalist (Daniel Pearl), after we received information 
attributing his January 23 disappearance to a kidnapping. In addition, 
the Worldwide Caution Public Announcement was revised on February 1, 
2002 to reflect reports that American citizens may be targeted for 
kidnapping or other terrorist actions.

  <bullet> September 11th Attack and Overseas Victims and Family 
        Members

    In addition to providing assistance to Americans and their family 
members who are victims of terrorism overseas, we have also worked to 
disseminate information and provide assistance to the families of 
victims of the September 11th attack who live overseas, including 
foreign nationals. For example, working closely with the New York City 
Mayor's Office we developed a method whereby family members of victims 
of the World Trade Center attack could apply for an expedited death 
certificate from overseas, with the assistance of consular officers at 
our embassies and consulates abroad. We also disseminated information 
about resources for victims of the attack to our consular officers 
around the world so that they could provide this information to victims 
overseas and to foreign governments. Through our efforts, information 
about the Department of Justice victim assistance call center, the new 
September 11th Victim Compensation Fund, the American Red Cross travel 
and emotional assistance programs for overseas victims, and other 
information has been widely shared. Our Visa Office also worked to 
facilitate the review of visa applications from family members of 
victims of the attack so they could travel to the U.S.
    Americans continue explore the world, to travel to often dangerous 
and interesting places and contribute to a better world. Our Passport 
Agencies issued 7.2 million passports last year. Applications are down 
just 7% this year. Terrorism has not deterred the determination of 
Americans to live in the world. There can be no excuse, no 
justification, and no rationalization for these acts of mass murder of 
innocent people. We must continue to have a zero tolerance for those 
who would harm our citizens working or traveling abroad. While every 
such incident cannot be controlled, we are committed to both reducing 
the potential for and mitigating the effects of such acts. We believe 
this strategy will be effective.
    The Department's efforts to protect Americans traveling abroad have 
been facilitated by our ongoing dialogue with Congress, and we look 
forward to working with you to seek opportunities for improvements in 
international travel information and services.
    Madame Chair, this concludes my testimony. Thank you for the 
opportunity to speak to the Subcommittee today. I will be happy to 
answer questions that Members may have.

    Senator Boxer. Thank you.
    Mr. Bergin, welcome.

   STATEMENT OF PETER E. BERGIN, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY OF STATE FOR DIPLOMATIC SECURITY AND DIRECTOR OF THE 
 DIPLOMATIC SECURITY SERVICE, DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Mr. Bergin. Good morning, Chairman Boxer and Senator Enzi. 
I am pleased to participate in this hearing on the important 
subject of protecting Americans abroad from terrorist threats. 
These are extraordinary times for all Americans. The threats 
facing our country and our citizens from elements around the 
world opposed to the United States of America and all we 
represent are more numerous and challenging than ever before.
    Diplomatic Security receives more than 4,000 threats each 
year, a significant portion originating overseas. Our opponents 
are tough and smart and we need to be smarter than them to meet 
their challenge.
    I appreciate the opportunity to highlight in this testimony 
three Diplomatic Security Service programs of national 
significance which play a major role in protecting our citizens 
overseas. First, Diplomatic Security operates the Rewards for 
Justice Program. Under this program the Secretary of State may 
offer rewards for information that prevents or favorably 
resolves acts of international terrorism against U.S. persons 
or property worldwide. The United States of America Patriot Act 
of 2001, which became law on October 26th, authorizes the 
Secretary to offer or pay rewards of greater than $5 million if 
he or she determines that a greater amount is necessary to 
combat terrorism or to defend the United States against 
terrorist acts.
    Secretary Powell has authorized a reward of up to $25 
million for information leading to the capture of Osama bin 
Laden and other key al-Qaeda leaders. The Rewards for Justice 
Program has been effective. It has saved lives and brought 
terrorists to justice. Since the mid-1980s the United States 
has paid over $8 million to 22 people who have provided 
credible information that puts terrorists behind bars or 
prevented acts of international terrorism worldwide. The 
program played a significant role in the arrest of 
international terrorist Ramsey Yousef who was convicted of the 
1993 bombing of the World Trade Center.
    The second Diplomatic Security program I would like to 
highlight for you is the Antiterrorism Assistance Program, or 
ATA. The ATA program is a significant line of defense for our 
country against terrorism overseas. Since 1983 it has provided 
training for more than 28,000 foreign law enforcement officials 
from just over 100 countries. And 3,000 foreign police will be 
trained just this year alone.
    I would like to give you just one example of the 
effectiveness of the ATA's program. In November 1997, 58 
tourists were killed in an ancient temple site in Luxor, Egypt, 
by an Egyptian terrorist group. U.S. tourists there at the time 
narrowly escaped being killed because they were able to hide 
from the terrorists, who were actually looking for Americans.
    At the time there was no police communication and no 
meaningful emergency response plan or capability. In the 
immediate aftermath of this incident, ATA played a major role 
in training and equipping Egyptian police, who now have a 
security presence at every such tourist site and waterway in 
Egypt. Two-minute police response teams are in place and every 
district in Egypt has a crisis management plan that is 
regularly exercised. The tourist sites there have not had an 
attack on them in 4 years.
    From my perspective, ATA provides security outside the 
walls of the embassy, with benefits for the entire American 
community.
    The third important Diplomatic Security program to protect 
U.S. citizens and interests abroad is the Overseas Security 
Advisory Council, or OSAC. OSAC is a unique partnership between 
the private sector and the government to address security 
concerns of the U.S. private sector around the world. The 
Bureau of Diplomatic Security through OSAC provides security 
information to U.S. companies, nongovernmental organizations, 
religious groups, and other private entities so they can make 
informed decisions about how best to protect their people, 
their facilities, and their investments abroad.
    We accomplish this in several ways. The Council, which is 
comprised of 30 representatives from the private sector, 4 from 
the U.S. Government, as well as 7 U.S. Government technical 
advisers, is the engine that drives OSAC.
    OSAC also has threat analysts who are dedicated exclusively 
to the private sector and are the person to person focal point 
for the exchange of information. Our interactive Internet Web 
site, which averages 50,000 hits per week, provides information 
about the overseas security environment. We have 45 overseas 
country councils that provide local forums for the sharing of 
information, the bringing together of resident private sector 
representatives with the United States Embassy or Consulate.
    OSAC is now in its 17th year and continues to provide 
critical information services to its 2,100 constituents.
    Chairman Boxer, thank you for the opportunity to speak to 
you and the subcommittee today. We appreciate your committee's 
continued support. Without it, the Bureau of Diplomatic 
Security could not be effective. I would be now happy to answer 
any questions you might have.
    [The prepared statement of Mr. Bergin follows:]

   Prepared Statement of Peter E. Bergin, Principal Deputy Assistant 
    Secretary of State for Diplomatic Security and Director of the 
                      Diplomatic Security Service

    I am pleased to participate in this hearing on the important 
subject of protecting our citizens overseas. The President and the 
Secretary of State have made clear, and the President's proposed budget 
reflects, that protection of U.S. Government personnel serving abroad 
is a top priority. The Diplomatic Security Service has a major role in 
ensuring their protection. Having just heard from my colleague 
regarding her Bureau's efforts in protecting Americans working and 
traveling overseas, I would like to spend a little time discussing my 
Bureau's role.
    As Director of the Diplomatic Security Service, I have a full 
appreciation for both successes and vulnerabilities in the overseas 
security arena. While the East Africa bombings are etched in our minds, 
the tragic events of September 11 serve to demonstrate our 
vulnerabilities here at home. Our resolve and response to the attacks 
should serve as a warning to our adversaries. However, there will 
continue to be those who are determined to exploit any void in our 
security or our collective will. Certainly our citizens abroad would 
then be considered potential targets.
    While America was the target that day, there was every expectation 
that a U.S. interest abroad, either government or private, would also 
be targeted. Embassy by embassy security was assessed, enhancements 
incorporated and additional agents deployed to embassies considered 
most at risk. Inherent in the process was maximized communication 
within each embassy and coordination with the Department on a continual 
basis. DS focused primarily on the embassy community, but as my 
statement will address, we were also working with our colleagues in 
Consular Affairs to address the greater American presence security 
issues.
    Regardless of the political climate, such as that which followed 
September 11, the protection of our citizens overseas is largely 
dependent on a system of safeguards, established relationships, 
intelligence sharing, communication, and dedication on the part of all 
those involved. This system also places responsibility on the traveler, 
employee, or dependent to take advantage of available information. The 
men and women of the Department take pride in their ``protective'' 
role, but it remains a collaborative effort, relying on multiple 
factors.
    It is also important to understand that the goal of safety is met 
on a daily basis, not generally by remarkable efforts, but rather 
indirectly through a variety of seamless efforts, the results of which 
cannot easily be quantified. Those efforts, in the form of a variety of 
programs and liaison activities, provide a deterrent effect.
    Regardless of our collective vigilance, there will continue to be 
threats made against American interests. We receive more than 4,000 
threats each year, a significant portion originating overseas. They 
range from anonymous bomb threats and kidnapping plots to embassy 
attacks and assassinations. Life-safety issues don't permit us the 
luxury of choosing which to investigate. We dedicate our resources and 
coalesce the resources of other law enforcement and government agencies 
to acquire, assess, and use information received in a timely 
responsible manner.
    As the Department's security and law enforcement component, DS has 
a broad mission, but its primary function is to provide a secure 
environment for the safe conduct of foreign affairs. The Omnibus 
Diplomatic Security and Antiterrorism Act of 1986 (P.L. 99-399) directs 
DS to be responsible for the protection of personnel, facilities and 
information. That mission is divided into investigative and protective 
operations, each of which has links to significant life-safety issues. 
While it is impractical to list all programs, I would like to give a 
brief overview of a few of our programs that fall within today's focus.
    We provide protection for the Secretary of State, for resident and 
visiting foreign dignitaries, and for foreign missions in the United 
States. Our investigative authority includes passport and visa fraud, 
clearly crimes that facilitate terrorist and other criminal attacks 
against our national interests, both overseas and domestically. Our 
Protective Intelligence Investigations Division (PII) is responsible 
for investigations involving terrorist threats and activities directed 
at personnel and facilities worldwide, that we are responsible for 
protecting. We also participate in 14 of the Joint Terrorist Task 
Forces (JTTF), with agents now being added to 5 more JTTFs. While 
located domestically, the task forces have become an integral part of 
America's response to terrorism overseas as well. The DS-JTTF role 
focuses on our ability to use our worldwide platform to further the 
JTTFs goals in an exigent manner.
    In close cooperation with the FBI and other agencies, our 
counterintelligence program is designed to deter foreign intelligence 
efforts directed against our personnel and facilities worldwide. In 
addition, DS is the operational component for the Rewards for Justice 
Program, which has had a role in the capture of 22 persons responsible 
for planning or executing terrorist acts against Americans. Rewards are 
provided for information relating to an attack or the prevention of an 
attack.
    In addition, the Antiterrorism Assistance (ATA) Program has proven 
to be a vital coalition building effort, paying security dividends for 
Americans. In cooperation with the Department's Office of 
Counterterrorism, which provides policy guidance, the ATA program 
provides America's first line of defense against terrorism overseas. 
Since first authorized by the Congress in 1983, ATA has provided 
training for 28,000 foreign law enforcement officials from more than 
100 countries. It has built productive relationships and provided a 
platform for exchanges of significant, timely information, a portion of 
which has relevance to the safety of Americans in that particular 
country or region. The ATA objectives include:

  <bullet> Enhancing the antiterrorism skills of friendly countries by 
        providing training and equipment to both deter and counter 
        threats of terrorism.

  <bullet> Strengthening the bilateral ties of the United States with 
        friendly foreign governments by offering training assistance in 
        areas of mutual concern.

  <bullet> Increasing respect for human rights by sharing with civilian 
        authorities modern, humane, and effective antiterrorism 
        techniques.

    The training of foreign officials is invaluable in efforts to 
provide protection for Americans overseas. By improving a country's 
ability to defend its territory against terrorism and other criminal 
activities, the ATA program improves protection and security for 
Americans living and traveling abroad.
    The events of September 11 demonstrated the need to maximize 
training opportunities, particularly for those designated as frontline 
countries. It has resulted in Congressional approval of a significant 
ramping-up of the ATA program, both in terms of course offerings and 
numbers of participants. As an example, courses such as Introduction to 
Cyber-Terrorism, First Responder, and Criminal Information Management 
Systems are being integrated as course offerings. More than three 
thousand participants will be trained this year. Efforts to accommodate 
still additional training classes continue.
    I would suggest that the Homeland Security initiative also benefits 
from ATA training. We can no longer protect our country from our 
borders alone. Rather, we must look to halt foreign terrorist activity, 
where it begins. The ability of foreign law enforcement to interdict 
terrorists and other criminals abroad, results in our shores and our 
families being made safer. That said, the more effective Homeland 
Security programs are in protecting against domestic attacks, the 
greater the potential that a ``softer'' more accessible American 
interest target overseas will be at least probed by our adversaries. 
That reality is a reason to remain vigilant and leverage every 
available resource from both the public and private sectors in 
addressing that environment as well.
    To that end, a well-established and proven government-private 
sector partnership continues to be recognized for both its current 
value and its potential. The Overseas Security Advisory Council (OSAC) 
established in 1986, is an ever-evolving mechanism for the sharing of 
security expertise and information between the Department and the 
private sector. Its goal is to maintain close liaison between the U.S. 
government and U.S. businesses; thereby providing an excellent conduit 
for the exchange of security information with and among U.S. companies, 
non-governmental organizations, educational institutions and other 
private entities; so they can make informed decisions about how to best 
protect their people, facilities, investments and intellectual property 
overseas.
    As the threat of terrorism to American interests increases, the 
value of the entire effort has taken on added significance. Organized 
criminal efforts against both our citizens and our businesses require a 
maximum effort to both prevent and mitigate the damage caused by the 
targeting of Americans. We understand the mission and we, together with 
our partners in Consular Affairs and the private sector, accept the 
challenge on a daily basis.
    The safety of both government and non-government employees and 
dependents living abroad has direct linkage to the tenets of OSAC. The 
thousands of employees or representatives of U.S. international 
businesses or organizations abroad, U.S. citizens, and host or third 
country nationals, represent a source of information which may be 
pertinent to the security of the personnel and facilities of other U.S. 
partners. OSAC, which is proud of its more than 2100 member 
corporations and organizations, acts as the clearing house for the 
vetting and exchange of information among private sector entities.
    The Council itself is composed of 30 private sector representatives 
from a very diverse group of businesses, such as financial, airlines, 
pharmaceuticals, consumables, high tech, as well as government 
representatives from the Departments of State, Commerce, Treasury, and 
the Agency for International Development. In addition, there are seven 
government Technical Advisors from: the Federal Bureau of 
Investigation, the National Security Agency, the National 
Counterintelligence Center, the U.S. Secret Service, the Federal 
Aviation Administration, the Financial Crimes Enforcement Network and 
U.S. Customs. To be inclusive, the Maritime Security Council is also a 
Technical Advisor addressing maritime security issues affecting cruise 
lines and maritime travel.
    In this remarkable coalition, with broad representation across the 
government and the private sector, security needs transcend parochial 
interests. The concept is not ad-hoc, or convened by a particular 
threat or disaster, but rather a seasoned, tested organization of 
professionals, each of which serves from 2-4 years. To date more than 
60 firms have served on the council at the invitation of the Secretary 
of State.
    As importantly, the OSAC concept encourages the establishment of 
Country Councils, which provide a forum for concerns to be addressed at 
the local or regional level.
    Currently there are OSAC Country Councils in 45 cities around the 
world. The composition of each includes host country, and U.S. or third 
country executives with security responsibilities for U.S. firms. The 
Embassy Regional Security Officer (RSO) and a private sector 
representative co-chair the council. Embassy support from the 
Ambassador, the Foreign Commercial Service, Consular American Citizen 
Services, and the economic or political sections adds to the sum.
    What is also critical in the OSAC partnership is that every effort 
is made to leverage technology on our behalf. Our adversaries now have 
almost unlimited access to technology. We must also take full 
advantage. For example, the OSAC INTERNET site (http://www.ds-osac.org) 
focuses on security issues and contains press reporting from around the 
world, unclassified embassy reporting, information on overseas 
contacts. It also gives readers information on groups prone to 
violence, upcoming global events anniversary dates, information on 
cyber terrorism, a template for crisis planning and response, and other 
specialized topics. An average of 60 new entries are made each day. 
This Diplomatic Security managed site is user friendly, has a high 
speed search engine, an interactive component and receives about 30,000 
hits per week.
    Further, OSAC publishes and distributes material prepared by 
security practitioners in business and government to the private 
sector. Publications such as: Emergency Planning Guidelines for 
American Businesses Abroad, Security Guidelines for Families and 
Children, Protecting U.S. Business Information Overseas and A Practical 
Guide to Responding to a Biological or Chemical Threat are all 
available on the web site or in hard copy.
    The daily operation of OSAC programs falls to the Research and 
Information Support Center (RISC). While candidly lean, it is most 
effective. RISC is staffed by six Security Specialists who are experts 
in their respective regions; and dedicated exclusively to the U.S. 
overseas private sector. This staff of analysts is the focal point for 
the exchange of information on security related incidents overseas 
between the Department of State and the private sector in the United 
States. The RISC is able to provide any enterprise incorporated in the 
United States doing business abroad with timely security-related 
information of an unclassified nature. The analysts average 200 
consultations per month with U.S. private sector organizations.
    Analysts search the world media every day and post relevant 
information on the OSAC web site of security or business interest to 
our constituency, including material they translate from foreign 
language dailies. They also review unclassified State Department cables 
from embassies around the world and abstract and post items of 
interest. They are looking not just at events but at the political, 
economic and social atmospherics which may impact U.S. business 
decisions. They take the next step with the information and distill the 
implications for U.S. organizations, companies, and their personnel and 
financial assets abroad. Their commitment and abilities, coupled with 
multiple support entities, has direct impact on Americans.
    I previously mentioned that OSAC had proven its worth, but also had 
visions for the future. I would like to share just two examples. Each 
relates to this committee's interests in this hearing.
    One current initiative is directed toward educational institutions. 
OSAC, joined by the Bureau of Consular Affairs, has formed the 
University Working Group to coordinate to develop safety programs and 
establish ``best practices'' guidelines to increase security awareness 
for students and faculty traveling and studying abroad. The University 
Working Group will share their results with colleges and universities 
throughout the country. The schools represented on the University 
Working Group are:
    Pepperdine University, University of Louisville, Ohio State 
University, Arcadia University, University of Southern California and 
Michigan State University.
    Another initiative underway involves training. OSAC has worked with 
the Department of State's Overseas Briefing Center to make available to 
the private sector a two-day program to prepare employees from the 
private sector to live and work overseas. It is very similar to the 
training that State Department and other USG employees receive, 
although it is being customized for a private sector audience. The 
course covers topics such as personal security, cross-cultural issues 
and security, specific tactics and trends and what the U.S. Embassy can 
and can't do for persons living or traveling abroad.
    I have taken this opportunity to share with you just a few of the 
program areas that are intended to provide our citizens overseas with 
an increased level of safety. However, from a Diplomatic Security 
perspective, it would be shortsighted on my part, not to directly 
address the mission of the men and women who serve overseas as Regional 
Security Officers, engineers or technical security experts.
    It is the RSO and their staff who remain the primary U.S. law 
enforcement point of contact at more than 250 Missions. They are the 
linchpins for security and law enforcement issues impacting the 
physical safety of U.S. citizens abroad. While we in DS hold each RSO 
to a high standard of performance, they continually evidence their 
willingness to place themselves in harms way for people whom they don't 
know, and probably will never see again.
    As with most security operations, unless there is a tragic outcome, 
we will never read of the initiative shown by our personnel or others 
on an embassy roll. The efforts made by the RSO and others in the 
Daniel Pearl case, or recent rescues of Americans in Jerusalem, while 
known within the Department, received no direct media attention. I 
raise these issues, to assure the Committee that this Secretary, and 
the Department as a whole, takes the responsibility for Americans' 
safety as a solemn duty.
    In spite of our dedication and resources, there will be 
circumstances and vulnerabilities, which result in attacks against 
Americans overseas. However, none will be the result of our 
indifference or lack of trying!
    Mrs. Boxer, I thank you and the other Members of the committee for 
being given the opportunity to appear here. I would now be happy to 
answer any questions you or the other Members may have.

    Senator Boxer. Thank you so very much, both of you.
    I have just a couple of questions. It used to be that the 
soft targets of these terrorists were journalists, businessmen 
and students. I am wondering if you consider them soft targets. 
It seems to me there has been a big change. I wonder if either 
of you could comment on that.
    Mr. Bergin. I will take that first. After the 1998 attacks 
on our embassies in Nairobi and Dar es Salaam, the Department 
came to the Congress for support to harden embassies abroad. We 
have made significant headway in strengthening security at 
embassies around the world, and that is good because the 
transnational threat is one where one day it may be Suva in the 
Pacific rim and then the next day it could be Asuncion in South 
America.
    So the view was that the threat was focused on the 
flagpole, either the embassy or in the case of the USS Cole or 
in Khobar Towers military personnel. In my view, Madam 
Chairman, the threat, there is a blur now, distinguishing 
between U.S. Government officials and American citizens. 
Generally from my perspective, the world is more unsafe today 
than it was prior to September 11.
    Senator Boxer. Is what today? I am sorry?
    Mr. Bergin. Is more unsafe today than it was prior to 
September 11. That should give Americans reason for concern, 
but they should not be paranoid or live in fear, because there 
are practical, commonsense things that you can do to minimize 
the risks.
    Senator Boxer. Do you want to say what those are, because I 
agree with you. I think these so-called soft targets are now 
just targets. So if you have some advice you could lay out 
here, it would be very helpful.
    Mr. Bergin. I think the No. 1 thing that we see in the 21st 
century is a proliferation of information. There is more 
information in open source about what is going on in Americans' 
communities, what is going on in the world. The key here is to 
be informed.
    One of the things that I encourage, because I was a, we 
call them regional security officers. These are Diplomatic 
Security special agents at embassies overseas. We have these 
country councils where the embassy security folks meet with the 
Americans in the community about security, and there is a 
regular exchange of information in these forums.
    Senator Boxer. I understand. So that is absolutely so and 
Ms. Andruch pointed this out. So they get the information. But 
you said it is more dangerous now than it was pre-9/11, that 
the targets that used to be considered soft targets are more 
vulnerable. So besides getting the information? Because I have 
to say one thing about this information. A lot of the 
information you get is from the intelligence community. Well, I 
do not know--I am only speaking for myself, but a lot of these 
warnings that come to us, you do not know what to do. Last week 
it was do not go to the supermarket. They did not say that. 
They said supermarkets may be a target.
    Last year, right after September 11 there were other such 
warnings, the bridges and so on and so forth. So what I am 
asking you is what can Americans do, obvious things that you 
have discovered that an American can do, a businessperson, a 
student, a tourist? They have all the information. Look, for 
example, I commend you on your information on the Philippines. 
I lost a constituent. He was beheaded by Abu Sayyaf, a tragic 
thing.
    Right now you are telling people do not travel in that part 
of the Philippines. You are basically saying that, which I 
really appreciate. It is very specific. But I am just concerned 
that it is still vague in other situations.
    So do you have, Ms. Andruch, do you have, specific advice, 
since Mr. Bergin has said it is more dangerous and there really 
are not so-called soft targets, it does not seem like, anymore.
    Ms. Andruch. I guess I would say, again not to beat a dead 
horse, but having as much information as possible. What we also 
urge is that Americans have--until this tragic event happened 
in the United States, we pretty much thought we were immune to 
the terrorist incidents. Now we know that that is not true and 
we have to pay a lot more attention to our personal security.
    I think having the information, avoiding crowds, avoiding 
demonstrations, trying not to look so ``American,'' as we tend 
to do overseas. You know, I have had it happen when I have gone 
to a post overseas, a stranger coming from the embassy can pick 
me right out of that plane. I look, we look American. There is 
not a lot we can do about that except perhaps try to blend in a 
little bit more with the surroundings, and then check with the 
embassy and consulate once there just for information that 
might be specific to that particular area, to that particular 
time, that is not yet out available to the public.
    Senator Boxer. Thank you.
    Senator Enzi.
    Senator Enzi. Thank you.
    I want to followup just a little bit more on that. U.S. 
businesses that are operating overseas can pick up some of the 
same travel advisories. Is there a special way of warning them, 
and how are those warnings communicated, and does the business 
community feel that it is effective?
    Ms. Andruch. Do you want to start since that is kind of an 
OSAC thing?
    Mr. Bergin. Yes, Senator Enzi. We have a Web site, and it 
is ds-osac.org, where businessmen--we have 2,100 constituents 
who are American businesses or nongovernment organizations who 
log onto us on a regular basis seeking information about what 
is going on overseas. They can view that day up to the minute 
reporting from not only the American media, but foreign press, 
as to a situation in a particular country.
    We have regular meetings with the business communities, 
three each year, to talk about security. In November there is 
an annual meeting where we bring up to a thousand American 
businesses into the State Department and we talk about the 
threat overview around the world. There has been very positive 
feedback about the effectiveness of OSAC as a tool to getting 
information out that they need to make business decisions.
    Ms. Andruch. If I could add just a bit there, we have a 
couple publications as well. One of them is from DS and it's 
entitled ``Countering Terrorism: Security Suggestions for U.S. 
Business Representatives Abroad.'' Then we have other pamphlets 
for Americans traveling.
    But to address your question about how we get that 
information out, in this network that every embassy and 
consular section has it uses whatever the best, whatever is 
possible in that country, given the infrastructure, to 
disseminate latest information as widely as possible. That is 
often by e-mail now. In some countries it may be a radio 
network or a phone tree, something as simple as that, to spread 
the word very widely.
    There was an interesting article. I do not know if you have 
had a chance to see it. It was in the New York Times last week, 
and it was from a family who actually traveled to Rome shortly 
after we put out a public announcement where we had information 
that met our criteria that something in fact may happen over 
that Easter holiday. In fact he laughed about it and he said 
they went. They were going specifically to a place that they 
thought was safer because it would be less crowded and that was 
during the time we were suggesting they not go.
    They took our advice to heart. They said they still had a 
wonderful time. It did not stop their vacation. They just 
altered their plans slightly. So I think that is a good thing, 
when we can get that out and let people sort of base their 
decisions on the latest information we have.
    Senator Enzi. To shift gears just a little bit, Mr. Bergin, 
if American citizens abroad were to seek refuge in our embassy 
or a consulate due to terrorist activities, what is the policy 
on the diplomatic security that is offered? Is there a defined 
period of time? Is it different for officials than for non-
officials, or does it even happen?
    Mr. Bergin. Well, I have never personally experienced a 
situation where Americans were seeking refuge in an embassy. I 
know that there have been circumstances where the political 
instability of a certain country requires an evacuation of 
noncombatants out of an area and we work very closely with the 
American community there. If the embassy is the place where you 
assemble to be evacuated, that is well and good. But there are 
other ways of handling that as well.
    I would also add to what Ms. Andruch said. In order for us 
to get this information that is significant for Americans to 
make decisions, they really should register at the embassy, and 
American businesses should register with their Overseas 
Security Advisory Council, so that we can automatically e-mail 
or fax information to them in preparation for their travel.
    But personally, sir, I have never experienced a situation 
where an American was seeking refuge in an embassy with respect 
to terrorism, but certainly we would not turn them away.
    Senator Enzi. So is there a current written policy on that 
or are you just using common sense?
    Mr. Bergin. Sir, I do not believe that there is a current 
policy on this. I think this is a matter of common sense and 
good judgment, reacting to a certain crisis that comes up.
    Senator Enzi. A final question for either of you: What is 
our current policy regarding negotiations to free Americans who 
might be victims of kidnaping in any of these areas?
    Mr. Bergin. The policy of the U.S. Government is that we 
make no concessions and we do not pay ransom. There is an 
element of the policy that is classified, that we would be 
prepared to discuss with you in closed session, but that is 
essentially the policy.
    Ms. Andruch. I have with me, if you would be interested in 
seeing it, it is actually an unclassified press statement that 
was made concerning that not too long ago, and I can leave that 
with you.
    Senator Enzi. Thank you. I am aware a little bit of the 
policy that we have for our Foreign Service officers and the 
briefings that their families get to make them aware of what 
that policy is. But I was not sure what it was for other 
Americans who might be abroad. Thank you.
    Senator Boxer. Thank you, Senator.
    Just following up, I think I have that here. The policy is 
``the U.S. Government will make no concessions to individuals 
or groups holding official or private U.S. citizens hostage. 
The U.S. will use every appropriate resource to gain the safe 
return of American citizens who are held hostage. At the same 
time, it is the U.S. Government policy to deny hostage-takers 
the benefits of ransom, prisoner releases, policy changes, or 
other acts of concession.''
    Now, the issue that I have is the story that appeared in 
the Washington Times on April 11 that said that the U.S. 
Government facilitated the payment of $300,000 through a third 
party in a bid to gain the release of two Americans held by the 
Phlippine terrorist group Abu Sayyaf. The transaction was 
completed before Easter. It goes on to say the Pentagon opposed 
it, but the State Department was for it, and the Philippine 
Government denies any money had been paid. Richard Boucher 
refused to comment on the ransom report.
    So can you shed any light on this at all, or would that be 
something we would have to do in executive session?
    Mr. Bergin. I am not aware of any payment, ma'am. We could 
get that up to you in a separate, closed session briefing. But 
I am not aware.
    Senator Boxer. Do you have any information?
    Ms. Andruch. No, I would have to agree. Again, there has 
been so much and continues to be so much in the press, and much 
of it is misinformation. So I would not be able to comment on 
that press article.
    Senator Boxer. Well, we would like to have the information. 
If you can make it available to us, we would greatly appreciate 
it. We would ask for it. We would ask you to take that back to 
the highest levels. We just want to see a report that we 
could--so we have some information on whether there are any 
exceptions to this.
    I wanted to end my questioning with a compliment. I see a 
really interesting document here, ``Responding to a Biological 
or Chemical Threat, A Practical Guide.'' This is terrific, and 
I wonder--it is what I like to see because it is very specific: 
warning signs of an attack or incident, such as droplets of 
oily film, unusual dead or dying animals, people dressed in 
warm weather with long sleeves, unexplained odors, unauthorized 
spraying in the area, victims displaying symptoms of nausea, 
and so on. It says what to do in case of an attack.
    Is this something that our Office of Homeland Security made 
available to you? Are they doing a similar book for our people 
here?
    Mr. Bergin. Actually, ma'am, Diplomatic Security produced 
this publication about 2 years ago. We had a very modest 
program before the anthrax scare here. This was sent out to all 
embassies. We have trained diplomats and their families at 200 
posts or so. It is in fact on our Internet site for all 
Americans.
    Senator Boxer. Very good. I want to show this to Senator 
Enzi. If he agrees--this is a brochure--with me, then I think I 
would love to see it given out quite a bit more to our people, 
sent to our people, because I think it is very practical. It 
tells you what to do. It would be a little hard to do some of 
those things you talk about if you are just in a hotel room, 
because it says get away from air conditioning and so on.
    But I think this is a terrific, very clearly written 
document. I wanted to thank you very much.
    Senator Enzi. I would agree that it is an excellent 
document, and it is cited in Senator Frist's new book on 
bioterrorism.
    Senator Boxer. Maybe we can work to get this to Tom Ridge 
and maybe just have this available for our constituency, 
because I think it could save lives. It is well done.
    Has it been updated since 2 years ago as well?
    Mr. Bergin. I do not believe so, ma'am. This was distilled 
from conversations with Defense Department specialists, medical 
specialists, a couple of years ago. It is contemporary.
    Senator Boxer. Well, since September 11, I think it has 
tremendous meaning to us right here.
    I want to thank you so very much. We will put your full 
statement in the record. You are welcome to stay if you want to 
hear the next panel. If you have other appointments, we will 
understand, but we will send you the record because we think 
that it would be good for you to hear what some of these folks 
have to say. So thank you very, very much.
    Ms. Andruch. Thank you.
    Senator Boxer. We really appreciate your testimony.
    Mr. Bergin. Thank you for having us.
    Senator Boxer. And any light you can shed on that ransom 
deal would be helpful.
    Panel two, if you would please come forward to the witness 
table: Mr. Frank Smyth, Washington representative of the 
Committee to Protect Journalists; Ambassador Vernon Penner, 
former Ambassador, counterterrorism expert, vice president for 
Corporate International Services at Crisis Management 
Worldwide; Mr. Thomas Ondeck, president of GlobalOptions, Inc.; 
Dr. Sheryl E. Spivack, assistant professor of Tourism Studies 
at George Washington University.
    We are very pleased, and we will call on you in the order 
in which I just re-introduced you, and we really look forward 
to hearing from you. Again, we are going to set the clock for 7 
minutes and we will put your entire statement in the record. We 
simply want to have time to ask you questions.
    Mr. Smyth, are you ready to open this?
    Mr. Smyth. Yes, I am.
    Senator Boxer. Thank you. I want to welcome all of you. You 
have just been wonderful to cooperate with us and to come out 
here today.

   STATEMENT OF FRANK SMYTH, WASHINGTON REPRESENTATIVE, THE 
         COMMITTEE TO PROTECT JOURNALISTS, NEW YORK, NY

    Mr. Smyth. Thank you, Madam Chairwoman. Good morning. My 
name is Frank Smyth and I am the Washington representative of 
the Committee to Protect Journalists [CPJ].
    CPJ is an independent nonprofit organization based in New 
York City that fights for the rights of journalists worldwide 
to report the news freely, without fear of reprisal. I would 
like to place in the record a copy of our recently published 
annual report, ``Attacks on the Press in 2001,'' \1\ which 
contains more than 500 individual cases of attacks against 
journalists in more than 130 countries.
---------------------------------------------------------------------------
    \1\ The report referred to can be accessed at the Web site of the 
Committee to Protect Journalists at http://www.cpj.org
---------------------------------------------------------------------------
    We are grateful for this opportunity to address this 
subcommittee. I have been asked to talk about what the U.S. 
Government can do to ensure the safety of U.S. journalists 
working overseas. This is of course an important issue and the 
recent abduction and murder of Wall Street Journal reporter 
Daniel Pearl in Pakistan dramatically illustrates the risks 
that U.S. journalists can confront.
    Nevertheless, according to CPJ statistics the risk faced by 
U.S. reporters working abroad is fairly small compared to the 
risk faced by local reporters, particularly those covering 
corruption, human rights abuses, and military operations. These 
journalists are often targeted in direct reprisal for what they 
write or broadcast. During the past decade, our research shows 
that 399 journalists have been killed worldwide while carrying 
out their professional work. Only seven of them were U.S. 
reporters working overseas.
    While I would like to briefly address the issue of the 
safety of U.S. journalists overseas, I plan to devote the bulk 
of my allotted time to discussing the larger threat to press 
freedom around the world, specifically CPJ's concern that the 
events of September 11 and the subsequent U.S. military 
response have precipitated a global press freedom crisis.
    I would like to take this opportunity to recognize and 
commend the U.S. Government for the role it has played and 
continues to play in working with Pakistani authorities to 
ensure that the killers of Daniel Pearl are brought to justice. 
However, we believe that this action is appropriate not because 
Mr. Pearl was a journalist, but because he was a U.S. citizen 
who was the victim of a crime. In fact, we are hard-pressed to 
think of any other action that the U.S. Government might take 
to protect U.S. journalists that would not do more harm than 
good.
    U.S. journalists reporting from dangerous areas around the 
world, especially those places where the actions of the U.S. 
Government have stirred local anger, rely on their perceived 
neutrality to keep them safe. Thus, efforts by the U.S. 
Government to protect U.S. journalists overseas risk having the 
unintended effect of further endangering the journalists if 
those efforts create the impression that the journalists are 
somehow linked to the U.S. Government.
    I want to highlight one action that CPJ believes the U.S. 
Government should never take: using an American journalist as a 
CIA agent. We call on the U.S. Government to reiterate its 
commitment to never recruit U.S. journalists as spies or 
government agents. We also call on the CIA and other government 
agencies to enforce a firm policy that it will never permit CIA 
agents to pose as U.S. journalists during undercover 
operations.
    Furthermore, we would like to see this policy expanded to 
also bar the use of non-U.S. journalists as spies. The 
perception or even the rumor that a local journalist works with 
the CIA would obviously put him or her at considerable risk.
    We have also been concerned that around the world 
repressive regimes have appropriated the rhetoric of the war on 
terrorism to justify the suppression of domestic criticism and 
curtail press freedom. In other instances, authoritarian 
governments appear to have taken advantage of the fact that the 
world's attention was elsewhere while they launched domestic 
crackdowns.
    In Eritrea, for example, the government of President Isaias 
Aferwerki shut down the independent press and jailed 13 
journalists in a crackdown that began shortly after September 
11. In Nepal, the government in November branded as terrorists 
anyone who supports the country's Maoist rebels and imposed 
emergency regulations that have been used to harass and 
persecute journalists who report on rebel activities or who 
work for publications seen as sympathetic to the Maoist cause. 
Dozens of journalists have been detained since the declaration 
of the state of emergency.
    Similarly, Chinese officials have characterized 
independence activists in the Muslim-majority region of 
Xinjiang as terrorists, targeting journalists and other 
intellectuals as part of a recently intensified crackdown on 
the separatist movement. In Malaysia, the Home Ministry has 
repeatedly blocked distribution of international publications, 
including Time and Newsweek, that published articles about the 
activities of Islamic militants within the country who may have 
links to the al-Qaeda terrorist network. In Kyrgyztan, 
President Askar Akayev has used the threat of international 
terrorism and the growing number of U.S. troops as excuses to 
curb political dissent and suppress the independent and 
opposition media.
    And in Zimbabwe, Information Minister Jonathan Moyo has 
described the independent press as terrorists and specifically 
cited U.S. actions in justifying an independent media crackdown 
there. ``We are watching events in the United States and 
Britain closely as pertaining to media freedom,'' said Moyo 
last year, according to a local report. ``These countries, 
especially the USA, have unashamedly limited press freedom 
since September 11 in the name of safeguarding the national 
interest. If the most celebrated democracies in the world will 
not allow their national interest to be tampered with, we will 
not allow it, too.''
    This is clearly an opportunistic response by Mr. Moyo, who 
spearheaded the efforts to curtail the independent press in 
Zimbabwe long before September 11. Nevertheless, it is sad that 
Mr. Moyo is seeking to justify his government's repressive 
measures by citing U.S. Government policy.
    In fact, CPJ has criticized the U.S. Government in several 
cases for taking action that we believe sets a very poor 
precedent internationally. Specifically, CPJ expressed concern 
about efforts by the State Department to censor Voice of 
America broadcasts last year that included a telephone 
interview with the Taliban leader Mullah Mohamed Omar. Later 
Congress formally restricted the VOA from airing any such 
terrorist views.
    The U.S. Government also tried to control broadcasts 
abroad. Last September Secretary of State Colin Powell asked 
the Emir of Qatar to use his influence to rein in Al-Jazeera, 
the Arabic language satellite station that is broadcast out of 
Qatar and financed by its government. Secretary Powell's 
request was followed by a formal diplomatic demarche by the 
U.S. Embassy in Qatar.
    In conclusion, while we believe that the U.S. Government 
should take no new specific actions to protect U.S. journalists 
working overseas because such action could do more harm than 
good, we believe there are actions that the U.S. Government 
should take to uphold and support press freedom around the 
world. Specifically, we believe that the U.S. Government should 
speak out against specific abuses and take active measures to 
ensure that the policy and rhetoric of the U.S. Government is 
never used to justify repressive actions against journalists 
anywhere.
    CPJ thanks the subcommittee for this opportunity and I 
thank you, Madam Chairwoman.
    [The prepared statement of Mr. Smyth follows:]

Prepared Statement of Frank Smyth, Washington Representative, Committee 
                         to Protect Journalists

    Good morning. My name is Frank Smyth, and I am the Washington 
Representative of the Committee to Protect Journalists. CPJ is an 
independent, non-profit organization based in New York City that fights 
for the rights of journalists worldwide to report the news freely, 
without fear of reprisal. I would like to place in the record a copy of 
our recently published annual report, Attacks on the Press in 2001, 
which contains more than 500 individual cases of attacks against 
journalists in more than 130 countries. We are grateful for this 
opportunity to address this subcommittee.
    I've been asked to talk about what the United States government can 
do to ensure the safety of U.S. journalists working overseas. This is, 
of course, an important issue, and the recent abduction and murder of 
Wall Street Journal reporter Daniel Pearl in Pakistan dramatically 
illustrates the risks that U.S. journalists confront. Nevertheless, 
according to CPJ's statistics, the risk faced by U.S. reporters working 
abroad is fairly small compared to the risk faced by local reporters, 
particularly those covering corruption, human rights abuses, and 
military operations. These journalists are often targeted in direct 
reprisal for what they write. During the past decade, our research 
shows that 399 journalists have been killed worldwide while carrying 
out their professional work. Only seven of them were U.S. reporters 
working overseas.
    While I would like to briefly address the issue of the safety of 
U.S. journalists overseas, I plan to devote the bulk of my allotted 
time to discussing the larger threat to press freedom around the world, 
specifically CPJ's concern that the events of September 11 and the 
subsequent U.S. military response have precipitated a global press 
freedom crisis.
    I would like to take this opportunity to recognize and commend the 
U.S. government for the role it has played, and continues to play, in 
working with Pakistani authorities to ensure that the killers of Daniel 
Pearl are brought to justice. However, we believe that this action is 
appropriate not because Daniel Pearl was a journalist but because he 
was a U.S. citizen who was the victim of a crime. In fact, we are hard 
pressed to think of any other action that the U.S. government might 
take to protect U.S. journalists that would not do more harm than good. 
U.S. journalists reporting from dangerous areas around the world--
particularly those places where the actions of the U.S. government have 
stirred local anger--rely on their perceived neutrality to keep them 
safe. Thus, efforts by the U.S. government to protect U.S. journalists 
overseas risk having the unintended effect of further endangering the 
journalists, if those efforts create the impression that U.S. 
journalists are somehow linked to the U.S. government.
    I want to highlight one action that CPJ believes the U.S. 
government should never take: Using an American journalist as a CIA 
agent. We call on the U.S. government to reiterate its commitment to 
never recruit U.S. journalists as spies or government agents. We also 
call on the CIA and other government agencies to enforce a firm policy: 
that it will never permit CIA agents to pose as U.S. journalists during 
undercover operations. Furthermore, we would like to see this policy 
expanded to bar the use of non-U.S. journalists as spies. The 
perception--or even the rumor--that a local journalist works with the 
CIA would obviously put him or her at considerable risk.
    We have also been concerned that around the world, repressive 
regimes have appropriated the rhetoric of the war of terrorism to 
justify the suppression of domestic criticism and curtail press 
freedom. In other instances, authoritarian governments appear to have 
taken advantage of the fact that the world's attention was elsewhere to 
launch domestic crackdowns. In Eritrea, for example, the government of 
President Isaias Afewerki shut down the independent press and jailed 13 
journalists in a crackdown that began shortly after September 11.
    In Nepal, the government in November branded as ``terrorists'' 
anyone who supports the country's Maoist rebels and imposed emergency 
regulations that have been used to harass and persecute journalists who 
report on rebel activities or who work for publications seen as 
sympathetic to the Maoist cause. Dozens of journalists have been 
detained since the declaration of the state of emergency.
    Similarly, Chinese officials have characterized independence 
activists in the Muslim-majority region of Xinjiang as ``terrorists,'' 
targeting journalists and other intellectuals as part of a recently 
intensified crackdown on the separatist movement.
    In Malaysia, the Home Ministry has repeatedly blocked the 
distribution of international publications--including Time and 
Newsweek--that published articles about the activities of Islamic 
militants within the country who may have links to the al-Qaeda 
terrorist network.
    In Kyrgyzstan, President Askar Akayev has used the threat of 
international terrorism and the growing number of U.S. troops as 
excuses to curb political dissent and suppress the independent and 
opposition media.
    And in Zimbabwe, Information Minister Jonathan Moyo has described 
the independent press as ``terrorists'' and specifically cited U.S. 
actions in justifying an independent media crackdown there. ``We are 
watching events in the United States and Britain closely as pertaining 
to media freedom,'' said Moyo last year, according to a local report. 
``These countries, especially the U.S.A., have unashamedly limited 
press freedom since September 11 in the name of safeguarding the 
national interest. . . . If the most celebrated democracies in the 
world won't allow their national interests to be tampered with, we will 
not allow it too.''
    This is clearly an opportunistic response by Mr. Moyo, who 
spearheaded the efforts to curtail the independent press in Zimbabwe 
long before September 11. Nevertheless, it is sad that Mr. Moyo is 
seeking to justify his government's repressive measures by citing U.S. 
government policy. In fact, CPJ has criticized the U.S. government in 
several cases for taking action that we believe sets a very poor 
precedent internationally. Specifically, CPJ expressed concern about 
efforts by the State Department to censor a Voice of America broadcast 
last year that included a telephone interview with the Taliban leader, 
Mullah Mohammed Omar. Later, Congress formally restricted the VOA from 
airing any such ``terrorist'' views.
    The U.S. government also tried to control broadcasts abroad. Last 
October, Secretary of State Colin Powell asked the Emir of Qatar to use 
his influence to rein in Al-Jazeera, the Arabic-language satellite 
station that is broadcast out of Qatar and financed by its government. 
Secretary Powell's request was followed by a formal diplomatic demarche 
by the U.S. embassy in Qatar.
    In conclusion, while we believe that the U.S. government should 
take no new specific actions to protect U.S. journalists working 
overseas (because such action could do more harm than good), we believe 
there are actions that the U.S. government should take to uphold and 
support press freedom around the world. Specifically, we believe that 
the U.S. government should speak out against specific abuses and take 
active measures to ensure that the policy and rhetoric of the U.S. 
government is never used to justify repressive actions against 
journalists anywhere.
    CPJ is greatful for this opportunity to address this important 
matter.

    Senator Boxer. Thank you very much, Mr. Smyth.
    Ambassador Penner, counterrorism expert and vice president 
for Corporate International Services, former Ambassador. 
Welcome, Ambassador.

 STATEMENT OF HON. VERNON PENNER, VICE PRESIDENT FOR CORPORATE 
INTERNATIONAL SERVICES, CRISIS MANAGEMENT WORLDWIDE, AND FORMER 
   DEPUTY ASSISTANT SECRETARY OF STATE FOR OVERSEAS CITIZENS 
                    SERVICES, ANNAPOLIS, MD

    Ambassador Penner. Thank you. Thank you, Madam Chairman. 
Let me begin by thanking the Chair for this opportunity to 
speak on a subject to which I have dedicated a significant 
portion of my career as a Federal servant, Foreign Service 
officer, and most recently in private business. I hope that my 
experience in consular affairs and currently as a senior member 
of a risk consultancy organization will be useful to the 
important work of this subcommittee.
    Now, there are three things I would like to stress in my 
oral testimony. First, that while Americans have always been at 
risk abroad from terrorism in the last decades of the 20th 
century, that risk is greater since the events of 9/11.
    Second, but even with the greater risk, that does not mean 
the roof is collapsing or that the world as we know it is so 
much different or that we should stop traveling or working 
abroad. I welcome your words when you talk about continuing to 
encourage travel. I believe we can work together to meet that 
greater risk by a combination of better intelligence and 
information, more proactive countermeasures and unrelenting 
awareness.
    Third, in my personal view in this process there is only so 
much the U.S. Government can and should do. Security is and 
must be viewed as a shared responsibility, involving a number 
of partners: the individual American, the employer if he or she 
is working abroad, the host country, and the U.S. Government.
    Now, about the first point, I do not think that much needs 
to be said. We are all in agreement that there is a greater 
risk to U.S. citizens abroad since 9/11. That needs no further 
elaboration.
    On the second point, and that concerns better information, 
proactive countermeasures, and awareness, let me offer these 
observations. I begin with the conviction that the State 
Department takes its responsibilities very seriously for the 
protection and welfare of American citizens abroad. When I was 
the Deputy Assistant Secretary we used to call our OCS branch 
the branch for four D's, the D division. It stood for the 
detained, the disappeared, the distressed, and the deceased. 
And already 20 years ago, we had categories numbering in the 
thousands. How many attributable to terrorism? A relatively 
small number, but with a very high profile because of the 
political significance.
    Now today, we see those numbers differently and the 
potential for much greater casualties, personal property, and 
major acts of terrorism in ways we never imagined possible.
    We have heard from the State Department representatives, 
the Bureau of Consular Affairs, the Bureau of Diplomatic 
Security. I can only applaud them but they have to do more. 
There must be a greater outreach to the traveling public and 
expatriate communities. I think other means of contact should 
be used, in drawing together groups and organizations like the 
American Chamber of Commerce, the U.S. Council for 
International Business, the National Foreign Trade Council.
    I believe there should be a greater participation by 
embassies abroad in the activities of their local American 
communities. I believe wider use of travel advisories should be 
done and specifically point to what you yourself raised, Madam 
Chairman, and that is possible trigger points or emergency 
responses that citizens themselves should take.
    There should also be an increased emphasis on holding host 
countries responsible for the protection of U.S. citizens and 
our expatriate public.
    Finally, I recommend that we use in a greater means, if 
possible, our own constituent posts, the consulates and 
consulate generals. This is where the real outreach to America 
occurs. I note in passing that there are fewer consulate and 
consulate generals today than since the end of the War of 1812.
    In providing all of these things, I think the State 
Department is under considerable limitations. One limitation is 
resources. It is interesting that in my last decades of work I 
cannot remember a year when State Department received the money 
it requested. Of the seven different posts I was assigned to in 
Europe, three have now closed.
    I attended very recently at my company's, my private 
company's, expense one of these excellent OSAC courses. This 
course had 60 participants in attendance, people ranging from 
Boeing, Pepperdine College, the Lutheran Welfare League, 
outstanding participation. Unfortunately, OSAC said that 
because of funding they could not repeat the program more than 
five times this current year. I find that unacceptable.
    Another limitation is attitude. To be honest, consular work 
is not considered the most career-enhancing in the State 
Department. Neither is diplomatic security. I think we need a 
top to bottom commitment to the concept that our success or 
failure in foreign policy is not just measured in terms like 
American interests, but in terms like American lives.
    I think this is a job for professionals. Here we have 
another limitation. I think too many well-meaning and highly 
qualified people, for whatever political reasons, have gotten 
themselves in protection and welfare, in consular work. My own 
position in the State Department was filled by a political 
appointee. I guarantee you that every career ambassador abroad 
has done consular work. That is not, of course, the case with 
the political appointees, who of course get a bit of consular 
training.
    But ultimately the State Department can only do so much. 
This is where I think we should now open and look at the shared 
responsibility factor. The first line of responsibility for 
Americans in country x is that country's own security and law 
enforcement personnel. Americans themselves must now take it 
upon themselves to be aware of the risks.
    Finally, as something that just occurred to me, I would 
like to table some recommendations that my own organization has 
pulled together, a professional organization, and suggest that 
as a consular officer in the past I often passed on to 
constituents, American citizens, lists of lawyers, lists of 
doctors for their use. There should be no reason why Diplomatic 
Security should not pass on a list of professional security 
organizations when the case so warrants it.
    Thank you very much.
    Senator Boxer. Thank you so very much for your very 
specific advice to us.
    Mr. Ondeck, president of GlobalOptions.

STATEMENT OF THOMAS P. ONDECK, PRESIDENT, GLOBALOPTIONS, INC., 
                         WASHINGTON, DC

    Mr. Ondeck. Thank you, Madam Chairman, for the opportunity 
to provide testimony to you today on this important topic. Our 
company is a private risk management and business intelligence 
company headquartered here in Washington. So we approach things 
in this area from a private sector background rather than a 
public sector background.
    Now, as we talked about earlier in the hearing, more 
Americans than ever are traveling to dangerous places overseas. 
We have some tourist agencies who now use the whiff of danger 
to attract U.S. travelers. For example, the Web site of one 
tourist agency promotes travel to Bogota by describing this 
city as ``dangerous but delightful.'' And indeed it is. Last 
year nearly 3,000 people were kidnaped in Colombia, more than 
any other country in the world. Colombia's murder rate is 13 
times higher than the United States. It is home to 
narcotraffickers, terrorists, guerrillas, paramilitary groups--
a lot of dangerous people. The State Department warns U.S. 
citizens not to travel to Colombia. Yet still, American 
tourists travel there.
    U.S. business travelers do not avoid hot spots, either. 
International travel is an indispensable part of modern 
corporate life and for many business people working in foreign 
high-risk areas just comes with the territory. That is 
particularly true, of course, for journalists, who by the very 
nature of their jobs are often at risk. Getting a story and 
getting it right usually requires investigative work and it 
often means traveling in dangerous areas and talking with 
dangerous people.
    All these dangers are further magnified by our Nation's war 
on terrorism. The terrorists are now on the defensive, but they 
are far from finished. They are looking to hit back and 
American travelers are tempting targets.
    Now, in light of this threat, what can we do to better 
protect Americans traveling overseas? First, governmental 
action. The government activities described by the first panel 
are very important. However, they cannot of themselves be 
expected to protect every American overseas. The State 
Department issues individual country travel warnings, but many 
Americans still choose to travel to dangerous countries.
    U.S. consulates offer advice and assistance, but it has 
been almost 100 years since the U.S. Consul in Tangiers 
summoned an American battle fleet to threaten bombardment if a 
kidnaped American was not released. The U.S. military provides 
protection for journalists in coordinated pools operating in 
war zones, but journalists are competitive. They seek to get a 
scoop and to get the story that no one else has, and sometimes 
that ends with tragic results. Last year 37 journalists were 
killed, including 9 covering the war in Afghanistan and 
Pakistan.
    A related problem is the kidnaping of Americans abroad. The 
U.S. Government's policy is not and, in our opinion, should not 
be to negotiate with kidnapers of American travelers, because 
to do so would only engender more kidnapings. Sixteen years 
ago, after Associated Press reporter Terry Anderson was 
kidnaped in Beirut, he noted that his captors could not hope to 
bargain with the U.S. Government. As Anderson stated, ``There 
was nothing that the American Government can or will give 
them.''
    Now, beyond that, we get to the issue of private actions 
that American travelers can take to better safeguard their 
security. For top executive travelers, private security firms 
such as ours, offer executive protection professionals, or 
bodyguards. We offer specialized courses in security awareness, 
terrorism awareness, and self-defense.
    Then for the average traveler, there are a variety of 
books, such as this book offered by our company. This is 
entitled ``Protect Yourself in an Uncertain World.'' It 
provides numerous specific suggestions. We agree with you, 
Madam Chairman, that it is specific, concrete recommendations 
and suggestions that are necessary to protect Americans when 
traveling.
    Some of the precautions that we recommend specifically--
there are numerous suggestions in the book--but some of the 
ones that we recommend in particular are: First, you do not 
have to be rich to be a target. Terrorists want to make a 
political point and for that, any American will do. Second, do 
not advertise your nationality. Blend in, wear clothes that 
blend in. Third, curb your vanity. Expensive clothes and 
jewelry always draw attention. Fourth, if possible do not 
travel by yourself. There is safety in numbers. If possible, 
hire a car and a driver rather than relying on taxis. Sixth, 
stay away from tourist-oriented bars and nightclubs. By going 
there you are making it easier for the bad guys to find you, 
and alcohol and safety do not mix. Finally, stay alert, always 
stay alert. Remember, you are not in Kansas anymore and if 
something does not seem right walk away fast.
    Madam Chairman, thank you very much for letting me testify.
    [The prepared statement of Mr. Ondeck follows:]

 Prepared Statement of Thomas P. Ondeck, President, GlobalOptions, Inc.

    Madam Chairman and members of the Subcommittee on International 
Operations and Terrorism, thank you for the opportunity to provide 
testimony on protecting Americans traveling abroad, and the risks and 
difficulties of protecting journalists.
    GlobalOptions is a risk management and business intelligence 
company. We provide a variety of security services for businesses and 
executives. Our staff of professionals include former intelligence and 
law enforcement officers, veterans of America's elite military units, 
and legal and crisis communications specialists. We also offer courses 
in security awareness, terrorism awareness, managing terrorist crime 
scenes, executive protection, self-defense, avoiding workplace 
violence, evasive/aggressive driving techniques, and firearms safety 
and marksmanship.
    More Americans are traveling internationally to places that are 
increasingly dangerous and participating in activities that are more 
hazardous than ever before. Additionally, travel abroad is more risky 
as a result of our nation's war on terrorism. Warnings have been issued 
that extremist groups may be planning attacks against Americans and 
facilities abroad. As a result, providing protection is becoming an 
ever more difficult challenge for the U.S. government.
    Some 27 million Americans journeyed overseas in 2000. While the 
most popular destination remains Europe, Americans increasingly are 
exploring more remote and potentially dangerous locations. Travel to 
Africa in 2000 expanded by more than 12 percent. Americans going to 
East Asia and the Pacific jumped by 15 percent--the fastest growth 
anywhere.
    Americans are not content to just bask in the sun on a sandy beach 
or relax in a luxury hotel. By increasing numbers, travelers are 
seeking adventure and the ``smell of danger.'' Adventure packages from 
travel agencies offer everything from mountain climbing to hang 
gliding, dog sledding, and sea kayaking. Special trips are even 
available for tornado chasing. If you want to trek to the top of Mt. 
Everest, venture into the depths of the Amazon rain forest, or blast 
off to space (Mark Shuttleworth from South Africa became the second 
space tourist when rocketed to space last week.), there is a travel 
agency that will make your dreams come true.
    Tourism agencies seek to attract travelers regardless of the 
danger. A website on Bogota, for example, promotes the city as 
``dangerous but delightful.'' Last year, nearly 3,000 people were 
kidnapped in Colombia, more than any other country in the world. Its 
murder rate is 13 times higher than the U.S. The country is home to 
narcotraffickers, guerrillas, paramilitary groups and other criminal 
elements. Bombings are also common. The U.S. State Department has 
warned U.S. citizens against traveling to Colombia. Still, Americans, 
placing their lives in jeopardy, continue to journey to Colombia, 
enticed by its miles of virgin coastline, warm and charming people, and 
exotic wildlife.
    Travel warnings for more than two-dozen countries have been issued 
by the U.S. State Department. Many Americans will heed these warnings, 
but not all. There will always be adventurers who are drawn to places 
filled with danger and intrigue.
    U.S. businesses cannot be expected to avoid hot spots either. 
Travel is an indispensable and unavoidable part of modern corporate 
life. For many companies, working in high-risk areas comes with the 
territory. As an example, untapped oil reserves are mainly located in 
remote, violent areas in developing countries. While the U.S. 
government can provide diplomatic support, protecting Americans in 
these hazardous areas is an immense challenge.
    There was a time when the world was less complicated and America's 
supremacy protected citizens abroad. In May of 1904, the U.S. State 
Department received a cable announcing a ``most serious situation.'' A 
``band of natives'' had kidnapped Ion Perdicaris, an American citizen, 
while he was in his country house in Tangier. The American Consul 
General, Samuel Gummere, requested that a man-of-war be sent at once. 
President Theodore Roosevelt had just dispatched 16 warships to the 
Mediterranean on a ``goodwill cruise'' and he ordered a contingent of 
four big battleships and three cruisers to steam to the Moroccan port 
to rescue Perdicaris.
    If Perdicaris was murdered, Roosevelt warned the U.S. would demand 
the life of the murderer. The United States threatened to land Marines 
and seize customs. The show of military force led to the release of 
Perdicaris, who commented: ``Thank Heaven. It is that flag . . . and 
that Preside . . . who have had me dug out from amongst the kabyles! 
That flag and no other!''
    Given the vast number of Americans journeying abroad and the 
world's political problems, it is no longer possible for the U.S. 
government to provide this level of security. Still, the State 
Department and consulate offices offer a wealth of information to 
inform travelers about hazardous places and provide assistance when 
there is a problem. But it would be wrong to suggest that the 
government can somehow protect every American from every peril.
    It is the fact that so many people are traveling today and the 
understandable limitations of government to provide assistance that has 
led to the establishment of risk management companies, such as 
GlobalOptions, and medical evacuation services like MedJet, which will 
dispatch a jet to fly members home if they are hospitalized abroad.
    Because government is necessarily limited in what it can do to 
protect Americans, it is important for international travelers to take 
the initiative and learn how to best protect themselves. The need to 
take precautions is especially warranted given America's war on 
terrorism. In March, the State Department issued a worldwide alert. 
U.S. citizens face an increased risk of attack from terrorists while 
abroad and may be targeted for kidnapping. Additionally, consulate 
offices may be temporarily closed or suspend services. In light of the 
heightened threat, following are some general precautions for 
travelers:

  <bullet> Be alert. Keep your mind focused on potential danger signals 
        and not personal items. The key to good personal security is 
        constant vigilance. An attack most often occurs when you let 
        your guard down.

  <bullet> Evaluate the necessity of your trip. In areas beset by 
        terrorism or political instability, determine if your task can 
        be accomplished by telephone or some other method.

  <bullet> Learn as much as possible about each country you plan to 
        visit, including the history, religion, government, and 
        language. Knowing the foreign phrases for such words as 
        ``help'' and ``police'' can save your life in a crisis.

  <bullet> Don't advertise your nationality. Try to wear clothes that 
        blend in with the native population.

  <bullet> Avoid known tourist haunts. If there is a threat of 
        terrorism, avoid cafes, nightclubs and other tourist spots that 
        might be targeted because they attract Americans.

  <bullet> Keep a low profile. Prominent persons should avoid 
        announcing their visits in advance. News articles and photos 
        increase your risk, since they alert criminals and terrorists 
        to your presence. Never allow your travel itinerary to be 
        published. Consider booking reservations using an alias or 
        using the name of your traveling companion.

  <bullet> Don't dress in expensive clothes and jewelry that will drew 
        unnecessary attention. Especially leave religious jewelry at 
        home.

  <bullet> Choose an airline carefully. The safest airlines tend to be 
        from places that are not part of political blocs or embroiled 
        in local conflicts, such as Sweden, Switzerland, and Singapore.

  <bullet> Book a flight on a large aircraft if possible. It takes more 
        manpower and effort for terrorists to seize a large jetliner. 
        Lone hijackers or small groups are more likely to target 
        smaller planes.

  <bullet> Check where a flight originates and stops en route. Flying 
        the most direct route minimizes the time you spend sitting in a 
        vulnerable terminal.

  <bullet> Avoid countries with permissive attitudes toward terrorism. 
        Airport security is the final line of defense, not the first. 
        Some countries, such as Greece, have failed to take effective 
        measures to combat terrorism and remain a dangerous transit 
        point.

  <bullet> Beware of taxis. Do not take the first taxi that approaches 
        when you walk out of a hotel. A number of Americans have been 
        kidnapped in this fashion. Don't be afraid to turn down a ride 
        if a cab appears unsafe or the driver acts strange.

  <bullet> File a trip plan with someone you trust. Brief the person on 
        what to do if there are any problems and check in with this 
        person frequently.

  <bullet> Stay away from unattended bags. They could contain a bomb. 
        Avoid trash bins, telephone booths and other enclosures that 
        could contain an explosive.

  <bullet> Hit the ground when hearing shooting or an explosion. Pull 
        your arms over your head for more protection.

    Kidnapping for ransom or for political reasons, once a rare crime, 
has increased dramatically in recent times. In some developing 
countries, such as Colombia. kidnappings have reached epidemic 
proportions. Below are a few suggestions to help victims avoid and/or 
survive a kidnapping ordeal.

  <bullet> It can happen to you. Time and again, kidnap victims explain 
        they didn't take security precautions because they thought they 
        could never be a potential target.

  <bullet> Vary your routine. For Americans living abroad, take 
        different routes to work, mix-up your routine so your 
        activities are difficult to predict.

  <bullet> You don't have to be rich to be kidnapped. Since most 
        officials and corporate executives have some security, 
        kidnappers often target mid-level personnel who are readily 
        accessible and do not take elaborate security precautions.

  <bullet> If you resist, you may be killed. Most kidnapped victims are 
        released in exchange for a ransom or other consideration. 
        Kidnappers want victims alive, not dead. But you increase the 
        likelihood that you will be killed or injured if you resist 
        forcefully.

  <bullet> Don't shoot off your mouth. Do not brag that your company or 
        family may have plans for securing your release in the event 
        you are kidnapped.

  <bullet> Don't assume you can reason with terrorists to win them 
        over. Avoid political discussions for you may only antagonize 
        your captors. Try to be a good listener.

  <bullet> Don't offer advice. Should your captors accept your 
        suggestion and it fails, you will likely be blamed.

  <bullet> Generally, don't try to escape. Your best chance of freedom 
        and survival lies in your exchange for ransom or your rescue. 
        If you fail, you will likely be subjected to harsh punishment.
                         protecting journalists
    Foreign correspondents, by the very nature of their jobs, are at 
risk. Getting a story--and getting the story right--usually requires 
investigative work. And that means traveling through, or to, 
potentially dangerous areas and talking with questionable people. While 
some of the above recommendations can reduce the chance a journalist 
working in a hostile land may be attacked or kidnapped, it is 
impossible to eliminate all risk.
    The abduction and murder of Wall Street Journal reporter Daniel 
Pearl is tragic, but not surprising considering where he was working--
Karachi. Pakistan--and the people he was associating with--an Islamic 
militant leader.
    Reporters must weigh the risks when working on a story. They do not 
have the luxury of conducting a security assessment or having 
bodyguards for protection. On January 23, the day Pearl was kidnapped, 
he met with an official at the U.S. Consulate to assess the danger of 
meeting with Sheikh Mubarik Ali Gilani, an Islamic extremist. The U.S. 
official advised Pearl against the meeting. But later that day, when 
Pearl received a call from a contact, he decided to go ahead with the 
meeting and soon thereafter was kidnapped.
    Sixteen years ago, Associated Press reporter Terry Anderson was 
taken hostage in Beirut. He points out that few reporters have been 
kidnapped. Anderson believes the reason is that it discredits the 
kidnapper's cause. ``All they're going to get is bad publicity,'' 
Anderson offers. The abductors cannot hope to bargain with the 
government for the life of a journalist. ``There is nothing that the 
American government can or will give them,'' Anderson states.
    From a security point of view, there are limitations in what 
government can do to protect journalists. Reporters are highly 
competitive and seek to get something that no one else has. To get a 
scoop, they rush to dangerous parts of the world, often arriving before 
U.S. troops. They file reports from the pathway of a hurricane. With 
satellite cell phones and laptop computers, journalists can report and 
file stories from nearly anywhere. This means they are no longer 
dependent on government resources to send stories to their editors, as 
they were in the past.
    Reporters do not take unnecessary risks just for the thrill of it. 
They take risks, as Anderson explains, ``because it is important.'' 
Pearl was investigating a story potentially linked to the accused shoe-
bomber Robert Reid.
    Pearl is one of nine journalists killed in the Afghanistan region 
the past year. Four died in an ambush, one during a burglary, and the 
other three in combat situations. Throughout the world, 37 journalists 
were killed in 2001.
    In conclusion, let me stress that traveling to other lands can 
clearly be dangerous. But by taking security precautions the risks are 
manageable. No American should hesitate to see and experience different 
countries and cultures. No corporations should, out of fear, reject the 
need to open markets and expand operations abroad.
    The chance of an ordinary American being killed or injured in a 
terrorist attack or being taken hostage is slim. The risks are higher 
for diplomats, members of the military, and corporate executives in 
selected parts of the world, and as such increased security measures 
are necessary.
    This concludes my testimony. I would be pleased to answer any 
questions you may have.

    Senator Boxer. Thank you so much for that very practical 
advice.
    Dr. Spivack. I am going to remind everyone again, you are 
assistant professor of Tourism Studies at George Washington 
University. We understand that you are George Washington's 
expert on data concerning safety of U.S. citizens and tourists 
abroad.

STATEMENT OF SHERYL ELLIOTT SPIVACK, PH.D., ASSOCIATE PROFESSOR 
 OF TOURISM STUDIES, GEORGE WASHINGTON UNIVERSITY, WASHINGTON, 
                               DC

    Dr. Spivack. Thank you. One minor, minor little correction. 
That is Associate Professor.
    Senator Boxer. Associate, sorry.
    Dr. Spivack. I am also the Director of the Tourism Policy 
Forum, an international think tank at the university. This 
operates under the International Institute of Tourism Studies.
    I certainly thank you for giving me the opportunity to 
present testimony on factors related to the protection of U.S. 
citizens while they are traveling abroad. I have for the last 
15 years conducted research and published articles on the 
health, safety, and security, security issues related to the 
growth of international tourism.
    International tourist arrivals in 2001 decreased by 1.3 
percent to 688 million. This was the first time in 50 years of 
recordkeeping by the World Tourism Organization that any 
significant decrease was measured. Since World War II nothing 
appeared able to flatten world travel growth, including wars, 
conflicts, and world recessions. Though specific acts of 
terrorism against tourists in a region would adversely affect 
travel to that region, they would not affect overall world 
travel growth. In essence, people simply traveled elsewhere and 
to regions they perceived as being safe.
    In 2001, two factors combined to produce the first decline 
in recorded history on international arrivals: the global 
economic slowdown which began at the end of 2000 and the 
terrorist attacks on the United States on September 11. 
Nevertheless, recovery is underway and the World Tourism 
Organization predicts the third and fourth quarters of 2002 to 
regain to pre-crisis levels. The rebound of travel after the 
September 11 attack thus took approximately 7 months.
    What this suggests is that the demand and thirst for travel 
is hard to dampen. In fact, travel appears to be a fundamental 
right. The ability to move freely around the world, to unite 
with family and friends, to understand other cultures and to 
conduct business across continents, and in sum to enlarge on 
one's perspective of the world.
    After all, the sine qua non of Western understanding has 
always been and always will be, the more we know the more we 
understand. Travel allows Americans and all peoples of the 
world to do just that. It is for that reason that tourism has 
often been suggested as the most accessible, if not vital, 
force for peace.
    In addressing the Tourism Policy Forum's international 
assembly in Washington, DC, 1990, Stephen Joel Trachtenberg, 
president of the George Washington University, stated: ``In a 
world of this kind, travel and tourism, seen from the view of 
what is good for the present and the future of planet Earth, is 
an absolute necessity, the most truly consequential industry of 
all if we're to have even a running good chance of achieving 
workable world peace.''
    At the same time, this growing travel phenomenon raises 
some pragmatic issues. International travel does impose certain 
health and safety risks, the scope of which is just beginning 
to be recognized by policymakers, industry, and the traveling 
public. Concerns related to health, security, and legal 
liability are very much at the forefront of the minds of all 
stakeholder groups. International conflicts and wars, growing 
levels of crime and terrorism, are real factors that will 
continue to influence the development of tourism and the 
movement of people to areas and away from others.
    Fortunately, understanding the conditions, factors, and 
trends that comprise the American traveling spirit is 
fundamental to creating the policies and partnerships necessary 
to successfully safeguard the promises travel offers. I suggest 
these trends to be examined:
    Trend No. 1: The travel experience changes. Americans are 
traveling in record number to remote destinations throughout 
the world in search of high adventure and often high-risk 
travel. Today's traveler is very different from the traveler of 
the early sixties, whose motivation was often oriented to 
status and prestige, and the product offered, superficial 
discovery.
    The traveler of the 1960's who visited 12 countries in 10 
days has been replaced by the traveler who demands authenticity 
of experience, greater physical involvement, risk-taking and 
adventure. Growth has exploded for adventure excursions, hiking 
up Mount McKinley, packing the jungles of Ecuador, cutting a 
path through the overgrown forests of Brazil. For soft 
adventure experiences, tourists are flocking to view glaciers 
from bush planes, scuba-ing through underwater parklands, and 
rounding up cattle on ranches.
    The old notion of a vacation being a relief from labor has 
been replaced by a much more physically, intellectually, and 
socially dynamic one. Yet, while travelers are seeking greater 
physical adventure, risk-taking and authentic experiences, they 
are nevertheless demanding to be assured of safety in all 
phases of travel, from transport and recreation to food 
services and accommodations.
    Protecting the interests of all these travelers in the most 
remote of destinations around the world is a challenge for all 
stakeholder groups, the destinations, the industry, and the 
tourists themselves.
    Trend No. 2: The travel market diversifies. Several new 
markets of travelers have emerged as a result of changes that 
have occurred within political and social spectrums. One 
observed trend is a market focus that has shifted from a 
broadcasting to a narrowcasting of consumers. Special 
population groups which have heretofore been overlooked are 
emerging in this decade as major new markets. One such special 
population is the physically disabled or physically challenged. 
Another group that has emerged with the much-touted demographic 
shift of the aging of the population is the senior traveler.
    In addition, the marketplace has become much more complex, 
with the number of individuals who now elect non-package tours 
and also the number of travelers who travel alone. 
Unfortunately, that is increasing. Last year 31 percent of all 
American international travelers traveling for leisure traveled 
alone.
    Trend No. 3: Travel services multiply. With the growth of 
international travel, so has grown the multiplicity of 
businesses and services to take the travail out of travel. One 
particularly interesting service to form are those companies 
that have established a niche in the insurance business by 
providing medical information assistance programs for 
travelers. Essentially, these services sell an information 
network program to insurance companies, who add the special 
coverage as an added benefit to existing health policies. The 
assistance provided includes locating competent doctors, 
arranging for medical attention, providing language and 
translation assistance, monitoring medical progress, and 
arranging for emergency evacuation if medically necessary.
    I do have--I understand that is my time limit. I do have 
some other comments and perhaps considerations as we look at 
how we might work together in terms of partnerships between 
government, nongovernmental organizations, universities, 
industry, and tourists in making certain that we do everything 
possible to make travel an experience that is safe and secure.
    Thank you very much.
    [The prepared statement of Dr. Spivack follows:]

    Prepared Statement of Sheryl Elliott Spivack, Ph.D., Associate 
              Professor, the George Washington University

    I thank you for allowing me to present testimony on factors related 
to the protection of U.S. citizens while they are traveling abroad. I 
am a professor at the George Washington University, School of Business 
& Public Management, and for over the last 15 years I have conducted 
research and published articles on health, safety, and security issues 
related to the growth of international tourism.
    International tourist arrivals in 2001 decreased by 1.3% to 688 
million. This was the first time in fifty years of record keeping by 
the World Tourism Organization (WTO) that any significant decrease was 
measured. Since World War II, nothing appeared able to flatten world 
travel growth including wars, conflicts or world recessions. Though 
specific acts of terrorism against tourists in a region would adversely 
affect travel to that region, they would not affect overall world 
travel growth. In essence, people simply traveled elsewhere and to 
regions they perceived as being safe. In 2001, two factors combined to 
produce the first decline in recorded history on international 
arrivals: the global economic slowdown, which began at the end of 2000, 
and the terrorist attacks on the United States on September 11. 
Nevertheless, recovery is underway, and the World Tourism Organization 
predicts the third and fourth quarters of 2002 to regain to pre-crisis 
levels. The rebound of travel after the September 11th attack thus took 
approximately seven months.
    What this suggests is that the demand and thirst for travel is hard 
to dampen. In fact, travel appears to be a fundamental human right; the 
ability to move freely around the world, to reunite with family and 
friends, to understand other cultures, to conduct business across 
continents, and in sum, to enlarge one's perspective of the world.
    The sine qua non of the western world has always been and will 
always be the more we know the more we understand. Travel allows 
Americans and all people of world to do just that. It is for this 
reason that tourism has been often suggested as the most accessible if 
not vital force for peace. In addressing the Tourism Policy Forum's 
International Assembly in Washington, DC, 1990, Stephen Joel 
Trachtenberg, President of The George Washington University stated, 
``In a world of this kind, travel and tourism . . . seen from the view 
of what's good for the present and future of Planet Earth . . . is an 
absolute necessity . . . the most truly consequential industry of all 
if we're to have even a running good chance of achieving workable world 
peace.''
    At the same time, this growing travel phenomenon raises some 
pragmatic issues. International travel does impose certain health and 
safety risks, the scope of which is just begiiming to be recognized by 
policymakers, industry and the traveling public. Concerns related to 
health, security and legal liability are very much at the forefront of 
the minds of all stakeholder groups. International conflicts and wars, 
growing levels of crime and terrorism are very real factors that will 
continue to influence the development of tourism and the movement of 
people to certain areas and away from others.
    Understanding the conditions, factors and trends that comprise the 
American traveling spirit is fundamental to creating the policies and 
partnerships necessary to successfully safeguard the promises travel 
offers.
Trend #1--The Travel Experience Changes
    Americans are traveling in record number to remote destinations 
throughout the world in search of high adventure and, often high-risk 
travel. Today's traveler is very different from the traveler of the 
early 1960's, whose motivation was often oriented to status and 
prestige, and the product offered--superficial discovery. The traveler 
of the 1960's who visited twelve countries in ten days has been 
replaced by a traveler who demands authenticity of experience, greater 
physical involvement, risk-taking and adventure. Growth has exploded 
for adventure excursions--hiking up Mt. McKinley, hacking the jungles 
of Ecuador, or cutting a path through the overgrown forests of Brazil. 
For soft adventure experiences tourists are flocking to view glaciers 
from bush planes, ``SCUBAing'' through underwater parklands, and 
rounding up cattle on western ranches. The old notion of a vacation 
being a relief from labor has been replaced by a much more physically, 
intellectually and socially dynamic one. Yet, while travelers are 
seeking greater physical adventure, risk-taking, and authentic 
experiences, they are nevertheless demanding to be assured of safety in 
all phases of their travel--from transport and recreation to food 
service and accommodation. Protecting the interests of all of these 
travelers in the most remote of destinations around the world is a 
challenge for all stakeholder groups: the destinations, the industry, 
and the tourist themselves.
Trend #2--The Travel Market Diversifies
    Several new markets of travelers have emerged as result of changes 
that have occurred within political and social spectrums. One observed 
trend is a market focus that has shifted from a broad-casting to a 
narrow-casting of consumers. Special population groups, which have, 
heretofore, been overlooked, are emerging in this decade as major new 
markets. One such special population group is the physically disabled. 
Another group that has emerged with the much touted demographic shift 
of the aging of the population is senior travelers. In addition, the 
marketplace has become much more complex with the number of individuals 
who now elect non-package tours and also the number of travelers who 
travel alone. Last year, 39% of all American international travelers 
traveling for leisure, traveled alone.
Trend #3--Travel Services Multiply
    With the growth of international travel, so have grown a 
multiplicity of business and services to take the ``travail'' out of 
travel. One particularly interesting service to form are those 
companies that have established an niche in the insurance business by 
providing medical information assistance program for travelers. 
Essentially these services sell an information network program to 
insurance companies who add the special coverage as an additional 
benefit to existing health policies. The assistance provided includes 
locating competent doctors and arranging for prompt medical attention, 
providing language and translation assistance, monitoring medical 
progress and arranging for emergency evacuation if medically necessary.
Trend #4--Travel Information Amplifies
    The diversification of the travel experience and the travel market, 
coupled with advances in telecommunications technologies, has resulted 
in greater consumer information demands on the travel industry and 
inbound and outbound countries. As an indicator, the U.S. State 
Department's Travel Advisory website is one of the most popular visited 
government websites. Clearly the Internet has had significant impact on 
planning and delivery of travel services. Bill Gates predicted that the 
Internet would have most impact in the areas of health, education, 
travel and entertainment. The fact that travel now generates the most 
revenue in business to consumer e-sales is indicative of this trend.
    These trends suggest that desire for international travel is not 
going to abate, nor is the need to address the safety and security 
needs of a diversifying market of U.S. travelers. Addressing the 
complexities of safety and security for individuals traveling abroad 
will depend on an international understanding between all countries 
that benefit from the large growing tourism industry. Clearly, it 
should be understood that:

  <bullet> The rights, safety and health of travelers is both an 
        obligation and market opportunity for government and businesses 
        alike. Governments and industry must maintain the highest level 
        of standards in developing and directing policies that respond 
        to health and safety considerations of all user markets.

  <bullet> Governmental and non-governmental agencies on the national 
        and international level must work with the tourism industry to 
        create a better exchange in the collection of timely and 
        accurate data. In the same measure, adequate educational 
        programs must be developed, utilizing current technology to 
        alert travelers of the safety conditions and situations that 
        could be potentially harmful or threatening. Travel advisories 
        must go beyond State Department advisories, and provide 
        realtime information that will contribute to the health 
        concerns of the traveling public.

  <bullet> Countries which depend on tourism for supporting its 
        economic structures and development must diligently safeguard 
        its product, assuring that products will be delivered in the 
        fullest consideration of the health, safety and well being of 
        both travelers and residents. Governments who wish tourism to 
        be a beneficial industry in their country cannot have only 
        regard for tourist dollars but must have equal regard for the 
        protection, health, safety and well-being of their visiting 
        guests.

    I thank the members of the committee for giving me the opportunity 
to appear before this committee.

    Senator Boxer. Thank you, and we will put all your 
statements in the record.
    It is sort of an interesting Catch 22, Senator Enzi, that 
is emerging here. On the one hand, if you travel in groups of 
Americans that is a problem. If you travel alone it is a 
problem. So clearly it is a challenge, but we are going to 
figure it out.
    I was very taken, Mr. Smyth, with your testimony, 
especially dealing with the CIA issue because as I look over 
it, we are trying to be positive here. What can we do to make 
journalists safer? Clearly, you do not want the heavy hand of 
government protecting you to the point where you have no 
credibility in covering a story abroad. I totally understand 
that.
    But you did raise the question of the CIA possibly using 
journalists or posing as journalists. Now, I am not familiar 
with the guidelines. Has there been a statement from the CIA on 
their policy regarding this issue?
    Mr. Smyth. As I understand, the CIA is prohibited at the 
moment and has been since the 1970's from using journalists as 
undercover operatives or from posing, having agents pose as 
undercover operatives. However, as I understand, it is possible 
that that policy could be waived by Executive order. The debate 
came up again, I believe, in 1996. There was some discussion 
about the possibility of waiving those restrictions. 
Fortunately, that debate ended without any changes.
    But we would like to see a blanket affirmation that that is 
not the case and will not be the case in the future.
    Senator Boxer. With no exceptions?
    Mr. Smyth. Right, with no exceptions.
    Senator Boxer. Well, I am very interested in this. I have 
not discussed it really with Senator Enzi, but what I plan to 
do as a result of your testimony is to get a briefing from 
Director Tenet on this point, because I think if we look back 
at the Daniel Pearl situation that issue was raised. Of course, 
immediate denials. But I would like to talk with him about it. 
I want to thank you for that.
    Now, my understanding is that you in fact were detained for 
18 days during the gulf war?
    Mr. Smyth. That is right, I was detained for 18 days in 
Iraq.
    Senator Boxer. During the gulf war by Iraq.
    Mr. Smyth. After the gulf war, and I was captured during 
the uprisings after the gulf war against Saddam, that is 
correct.
    Senator Boxer. You were covering Iraq post-gulf war?
    Mr. Smyth. Right, I was covering the Kurdish rebels in 
northern Iraq, and I myself was accused of being a CIA agent.
    Senator Boxer. You were? Who was it who detained you?
    Mr. Smyth. We were captured by Iraqi Army special forces 
and then transferred to Iraqi military intelligence agents, and 
then transferred to an Iraqi prison until our release by Iraqi 
Ministry of Information officials.
    Senator Boxer. How many of you were there?
    Mr. Smyth. There were four of us, three journalists and an 
armed guerrilla guide. Gad Gross, a journalist, and our armed 
guide, Battei Abdullah Rahman, were captured and executed; and 
myself and a French photographer were captured an hour later 
and we survived and were both held for 18 days together.
    Senator Boxer. Can you attribute something that happened 
there to your safe release, if you had to think why?
    Mr. Smyth. I think the U.S. Government raised my case in 
particular in military to military contacts, I was told later. 
I think that was useful to some degree, but I also think that 
also helped convince some Iraqi military intelligence officers 
that, since the U.S. Government was concerned about me, that 
perhaps I was what they were claiming.
    I think what really was instrumental in my release was the 
ad hoc campaign that was mobilized by my journalistic 
colleagues, including CPJ, for whom I did not work at the time, 
to mobilize a campaign, including appeals made on CNN, I think 
that were instrumental.
    Senator Boxer. Well, it did not work for Danny Pearl.
    Mr. Smyth. No, it did not, unfortunately.
    Senator Boxer. I just have one more question. I want to 
thank all of you because this has been really good.
    Ambassador Penner, we did not have a written statement from 
you. You wrote it from the heart and you just delivered it. You 
had mentioned some specific things you think the State 
Department could do more of, could do better of, and you were a 
little critical. Is it possible for you to get that in a letter 
to me and to Senator Enzi so we can take a look at your 
specific proposals?
    Ambassador Penner. I will do my best.
    Senator Boxer. Because if we agree with you and then we can 
team up, maybe we can see if we can do better over there.
    I want to thank you again and ask my colleague if he has 
questions.
    Senator Enzi. Thank you, Madam Chairman. Yes, I have a 
couple.
    Again, I do want to thank all of you for your testimony. It 
has been helpful. I am anxious to get a copy of the book and 
read it.
    Mr. Ambassador, on your comments, one of the things that I 
have been working on since I got here was to have a State 
Department liaison office with the Senate on the Hill. When we 
are doing travel abroad most of it is arranged by the military 
liaisons, who all do have offices here on the Hill and work 
with us frequently and have the added benefit when they are 
traveling with us of being able to mention a few things that 
the military needs. And coincidentally, when we are in a 
foreign country and visiting there, we usually get to see the 
military installations that are of importance in that country.
    We spend a few minutes with the embassy, who are also 
having security difficulties and special needs that would help 
the country. So I am hoping that we can find a small cubbyhole 
where we can put people up here. I think that would both 
enhance our security and the security of the embassies.
    It has also been my hope that when we meet with people from 
foreign countries, which people on this committee particularly 
do, that that liaison office could then arrange for us to have 
an interpreter, one from our side. The other side brings 
interpreters, but I have always wondered whether they were 
actually saying what I said.
    I just was in Russia on a trip and worked with them on some 
cooperation items and I had three interpreters with me who were 
from the University of Georgia, and was surprised to find the 
number of times that the interpreter from the other side and 
the interpreter from our side were arguing over definitions. 
For instance, their word for ``security'' and their word for 
``safety'' is the same word, but they are two absolutely 
different things and could make a difference to embassies and 
particularly to security agreements that we are having.
    I appreciate your comments, too, about the political 
appointees. I roomed with the same person for 3 years during 
college who became a career ambassador or a career Foreign 
Service officer. So when I travel in these other countries I 
kind of look at the people that I meet and try and determine 
whether they are political appointees or career folks, and 
there is a difference, not a vast difference in some instances, 
but there is a difference in the information that is conveyed 
to us.
    I do have some questions for all of the members of the 
panel, but since we are running out of time, if we can have the 
record open, I will submit those. But I do want to ask Dr. 
Spivack a question. I appreciate her coming today. I am a 
graduate of the George Washington University, so I appreciate 
the accumulation of expertise that has been put there.
    I have been working on terrorism insurance for buildings 
and it occurred to me that probably the travel industry also 
has some needs on the insurance side. I think some people 
insure to make sure that if their trip gets canceled they can 
be reimbursed and that sort of thing. Can you give us just a 
little update on what some of the travel insurance needs are, 
how they have been affected since September 11? Is there a 
problem with that?
    Dr. Spivack. Well, there has been for a number of years 
travel assistance programs available for travelers. The 
particular organizations that have made a lot of use of these 
are organizations such as universities, the World Bank, the 
IMF, that have a large number of employees abroad at any one 
point in time. So they negotiate, they are almost like blanket 
riders to policies that create an information network, travel 
assistance network for travelers when they are traveling abroad 
or living abroad.
    Essentially what it is is a number of preferred providers 
throughout the world that can bring immediate attention. All 
you have to do is be able to get into an 800 number or to a 
telephone number and you are connected to multiple providers 
worldwide, receiving anything from language assistance, if you 
are detained by the police assistance is given in those 
situations, if you need psychiatric counseling.
    It is a fairly large, extensive array of services that 
these travel assistance programs provide.
    Senator Enzi. Has that gotten more difficult since 
September 11 to get? Have the rates gone up? Are you aware of 
any changes?
    Dr. Spivack. I am not aware of any rates going up. There 
are pretty standard procedures with universities and large 
organizations, as I said, who have many people abroad at any 
one given time. There are certain credit companies that, if you 
purchase your airline ticket through a credit company, you 
automatically get that travel insurance.
    Again, these programs have been around for many years. I 
think people are more aware of them. I think September 11 did 
bring that attention to the minds of people to look at all 
kinds of assistance programs that might make their travels more 
safe or give them the perception of safety.
    Senator Enzi. Thank you, and I appreciate your testimony. 
If we can leave the record open, I will have a list of 
questions.
    Senator Boxer. We will leave the record open.
    Senator Enzi. Thank you.
    Senator Boxer. Let me just again thank you all. In addition 
to this CIA question which I am going to pursue, another 
interesting point was made about the responsibility of the host 
country. I am not sure if it was Mr. Ondeck or it was 
Ambassador Penner. In a world where Americans are really, with 
our trade agreements--and we have one on the floor right now--
really helping the people of the world because we have a very 
open trade policy--unfortunately, unlike many of them, we do 
get out there and buy their products. I mean, they owe us 
something to help us.
    One of the things they could do is to make sure that when 
Americans travel abroad, whether it is business people who are 
in fact there on a business trip--and I would love to have a 
copy of your book so I can show colleagues on the committee 
what is being done in the private sector about this, because I 
do worry about the availability. You know, it is easy to say we 
have this on our Web site, but I am taken with the suggestion 
that there be more outreach and that there is not enough 
outreach.
    Ambassador Penner. Madam Chairman, let me give you one 
specific example. Any ambassador going and serving abroad gets 
a fairly detailed list of instructions, a kind of a letter of 
introduction. I would be hard-pressed--I have not seen one 
recently. Certainly when I went out as ambassador, there was 
virtually no mention of consular affairs or protection and 
welfare in my letter of instructions.
    Now, I realize this goes back 15 years. Nonetheless, I am 
convinced there has yet to be a commitment from all sides of 
the State Department that consular affairs is as important as 
it is. I would suggest that the drafter of those letters of 
instructions come from the regional bureaus.
    I am struck by Senator Enzi's comment that he is sort of 
crafted by the military people who prepare his own trips. I 
agree with you completely and I support that State Department 
career people should be involved. Similarly, consular officers, 
professionals, should be involved as well in the process, and 
that may be something to pursue.
    I only note in passing that there has never been an 
Assistant Secretary of State for Consular Affairs who has been 
a career consular officer. I do not want to disparage the 
outstanding people that have been there, and I have served 
there myself, but I feel that we have reached the stage, and I 
think all our colleagues agree, the threat is so much greater 
that we have to engender a professionalism into what we are 
going to be doing about these things.
    Senator Boxer. I so appreciate it. The reason I wanted to 
hold this hearing now, not following some horrible incident, 
and we did not do it right after Danny Pearl, this is a good 
time to come forward with these ideas. So I would like to issue 
a challenge to all four of you. It would be very helpful to me 
to just sit down on one piece of paper and say, these are the 
four things I think the committee ought to pursue, five things 
or two things or one thing.
    I think I know from your testimony, but I would like to 
even get it down in a more precise way. What I will do when I 
receive that is discuss that with Senator Enzi. If he and I can 
team up in certain of these proposals, I know we will. And 
because we do not team up that often, I think we will get--on 
other issues of a domestic nature--when we do team up on this, 
I think we would have some clout.
    So we are very thankful to you all for coming here today, 
and we look forward to this followup I hope that you will be 
able to do for us. In the mean time, I am going to start the 
followup on my own.
    We stand adjourned, and again thank you so much.
    [Whereupon, at 11:42 a.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
